<html>
<title> - COMBATING TERRORISM: LESSONS LEARNED FROM LONDON</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
            COMBATING TERRORISM: LESSONS LEARNED FROM LONDON

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 19, 2006

                               __________

                           Serial No. 109-259

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                     U.S. GOVERNMENT PRINTING OFFICE
44-957 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                      Benjamin Chance, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                  R. Nicholas Palarino, Staff Director
              Elizabeth Daniel, Professional Staff Member
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 19, 2006...............................     1
Statement of:
    Rollins, John, Specialist in Terrorism at International 
      Crime, Foreign Affairs, Defense and Trade Division, 
      Congressional Research Service; Tom Parker, former British 
      counterterrorism official, adjunct professor, Bard College, 
      executive director, Iran Human Rights Documentation Center; 
      Baroness Falkner of Margravine, member, House of Lords, 
      United Kingdom, fellow, Institute of Politics, Harvard 
      University; James A. Lewis, senior fellow, technology and 
      public policy program, Center for Strategic and 
      International Studies; and David B. Rivkin, partner, Baker 
      and Hostetler, member, U.N. Subcommittee on Promotion and 
      Protection of Human Rights, contributing editor, National 
      Review, former official at the White House and Departments 
      of Justice and Energy......................................    12
        Falkner Baroness.........................................    57
        Lewis, James A...........................................    65
        Parker, Tom..............................................    40
        Rivkin, David B..........................................    73
        Rollins, John............................................    12
Letters, statements, etc., submitted for the record by:
    Falkner, Baroness, of Margravine, member, House of Lords, 
      United Kingdom, fellow, Institute of Politics, Harvard 
      University, prepared statement of..........................    60
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     8
    Lewis, James A., senior fellow, technology and public policy 
      program, Center for Strategic and International Studies, 
      prepared statement of......................................    68
    Parker, Tom, former British counterterrorism official, 
      adjunct professor, Bard College, executive director, Iran 
      Human Rights Documentation Center, prepared statement of...    44
    Rivkin, David B., partner, Baker and Hostetler, member, U.N. 
      Subcommittee on Promotion and Protection of Human Rights, 
      contributing editor, National Review, former official at 
      the White House and Departments of Justice and Energy, 
      prepared statement of......................................    76
    Rollins, John, Specialist in Terrorism at International 
      Crime, Foreign Affairs, Defense and Trade Division, 
      Congressional Research Service, prepared statement of......    16
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3


            COMBATING TERRORISM: LESSONS LEARNED FROM LONDON

                              ----------                              


                      TUESDAY, SEPTEMBER 19, 2006

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:07 p.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Porter, Kucinich, and Van 
Hollen.
    Staff present: J. Vincent Chase, chief investigator; R. 
Nicholas Palarino, staff director; Robert A. Briggs, analyst; 
Elizabeth Daniel andAlex Manning, professional staff members; 
Andrew Su, minority professional staff member; and Jean Gosa, 
minority assistant clerk.
    Mr. Shays. Quorum being present, the Subcommittee on 
National Security, Emerging Threats, and International 
Relations hearing entitled, ``Combating Terrorism: Lessons 
Learned from London,'' is called to order.
    Last month, British authorities announced they disrupted a 
terrorist plot to detonate as many as 10 transatlantic aircraft 
leaving Heathrow Airport for the United States.
    A London metropolitan police representative said the 
successful execution of this plot would have wrought mass 
murder on an unimaginable scale.
    This is the most recent incident in a decades-long pattern 
of attempted and successful terrorist attacks against passenger 
airlines.
    In January 1995, Philippino authorities disrupted an 
operation which sought to blow up American passenger planes.
    On September 11, 2001, terrorists tragically used our 
aircraft to attack the United States.
    Five years after September 11th, in an international 
atmosphere of uncertainty we continue to ask the question, is 
our country safer?
    The successful disruption of terrorist attempts like this 
London bomb plot indicates we may be headed in the right 
direction, in changes we have implemented, improved information 
sharing, surveillance, increased law enforcement resources 
devoted to national security, appeared to be helping thwart 
terrorist attacks. But the fact that such threats remain and 
that these threats exist in such a potentially massive scale 
also warns us we must remain vigilant. Detection and prevention 
must be the first line of defense enabling the intelligent 
infiltration of terrorist cells and prevention of their 
actions. All of this must take place within a comprehensive and 
transparent legal framework governing the counter-terrorism 
apparatus.
    The key in this disruption of the London bomb plot was that 
it was foiled before the would-be terrorists got to the 
airport. We understand local and international elements of the 
British counterterrorism apparatus helped secure the crucial 
tip that led to the capture of the suspects. They tracked 
terrorist financing evidence via intelligence cooperation with 
Pakistan. They were able to coordinate their internal 
counterterrorism components to react quickly, effectively and 
flexibly. And their authorities have the legal and 
jurisdictional tools to allow them to conduct a thorough 
investigation after the fact.
    Today, we focus on the counterterrorism tools available to 
the British, which of these of their tools does the United 
States share? What do we lack? And how could some of these 
tools usefully be adopted to an American environment? Which of 
these tools are more appropriate for Britain? And what are the 
implications for some of those tools coming face to face with 
American civil liberties regulations?
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T4957.001
    
    [GRAPHIC] [TIFF OMITTED] T4957.002
    
    [GRAPHIC] [TIFF OMITTED] T4957.003
    
    Mr. Shays. Our witnesses today appearing together on one 
panel will offer their perspectives from both sides of the 
Atlantic.
    We will hear testimony from Mr. Tom Parker, a former 
British counterterrorism official, and Baroness Falkner of 
Margravine--you will teach me how to say it better--a member of 
Parliament from the House of Lords, who served as an adviser on 
Prime Minister Tony Blair's task force on Muslim extremism. Our 
American witnesses include Mr. John Rollins, an expert on 
intelligence and homeland security from the Congressional 
Research Service; Dr. Jim Lewis, a specialist in surveillance 
technology and its implications from the Center For Strategic 
and International Studies; and Mr. David B. Rivkin, a former 
official at the White House, Justice and Energy Departments 
under Presidents Reagan and George H.W. Bush.
    We are grateful to all of them for their appearing before 
us today and we look forward to their testimony and the 
interesting discussion I think that will come from it.
    At this time, the Chair would recognize a gentleman who has 
no name evidently, but is the ranking member of the 
subcommittee, Mr. Kucinich.
    Mr. Kucinich. Thank you, Mr. Chairman.
    Operating incognito. I want to thank you for holding this 
hearing. There are many lessons to be learned from attempted 
terrorist attacks, both here and abroad. First, we must also--
thank you----
    Mr. Shays. When a member tries to help, it makes it worse.
    Mr. Kucinich. I didn't say that. First we must also be 
deliberate in the method and manner in which we address the 
issue of terrorism in our world.
    This should not be considered a war on terrorism, which is, 
in my estimation, is an oxymoronic proposition.
    One need only look to the arrests in Britain to realize 
that the prevention of terrorism is primarily a police action. 
The planned attacks were not stopped by an army, but through 
careful police work. Second, while the work of British police 
in foiling the terrorism plot certainly deserves praise, it 
does not mean that the United States should rush to change our 
Nation's laws to mirror those in the United Kingdom, 
particularly laws which would hinder the protection of our 
right to privacy and civil liberties.
    The so-called global war on terror has already translated 
into a dangerous assault on our Constitution. The PATRIOT Act 
permits the government to conduct criminal investigations 
without probable cause, to conduct secret searches, to gain 
wide powers of phone and Internet surveillance and access 
highly personal medical financial mental health and student 
records with minimal judicial oversight. And I might say that 
this is still a subject of great debate in the United States.
    There is many of us who feel that our Constitution, which 
yesterday we celebrated another birthday of, our Constitution 
is being undermined by this oxymoronic war on terror.
    Third, we need a careful re-examination of our Nation's 
foreign policy in the Middle East, and a careful reexamination 
of our Nation's foreign policy with respect to Muslims in the 
world.
    Continuing down the path that led to a disastrous war based 
on false pretenses, and our continuing occupation of Iraq, 
which has led to civil war is causing blowback against the 
United States and the United Kingdom. That is why these attacks 
continue. And that is why the young men in this plot, all 
second generation Britains of Pakistani descent, admittedly 
adopted a violent means of protesting United States and U.K. 
foreign policy. There is no excuse for terrorism. But we sure 
better understand how terrorism gains its roots.
    I believe the United States needs to change its long-term 
policy to respond to this growing threat. We should start by 
withdrawing our military forces from Iraq and by stepping back 
from preparations from military invasion in Iran.
    We also need to address the real roots of terrorism, why it 
appeals to so many young men in the Middle East, Africa 
Southeast Asia and the middle of London. There is still a huge 
cultural divide and a misunderstanding of the Arab world that 
has led to the perception that many Arabs and Muslims are 
potential terrorists.
    Extremists clearly do not represent the views of the 
majority of Muslims, and that needs to be said over and over. 
As a matter of fact, as even the equation of concoction, Muslim 
terrorist, I think is a smear on all those who practice Islam, 
and so we should be careful about how we approach that.
    I want to thank the witnesses for being here today. Look 
forward to hearing your testimony.
    Mr. Shays. Thank the gentleman.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T4957.004

[GRAPHIC] [TIFF OMITTED] T4957.005

[GRAPHIC] [TIFF OMITTED] T4957.006

    Mr. Shays. At this time, I will introduce our witness. We 
have Mr. John Rollins, Specialist in Terrorism at International 
Crime Foreign Affairs, Defense and Trade Division, 
Congressional Research Service. It is great to have you here. 
Mr. Tom Parker former British counterterrorism official adjunct 
professor, Bard College, executive director Iran human rights 
documentation center. Baroness Falkner of Margravine Member 
House of Lords, United Kingdom, fellow, Institute of politics, 
Harvard University, member and 2005 prime minister's task force 
on Muslim extremism. Dr. James A. Lewis, senior fellow, 
technology and public policy program, Center for Strategic and 
International Studies, and Mr. David B. Rivkin, partner, 
Washington, DC, Office of Baker & Hostetler, member U.N. 
Subcommittee on Promotion and Protection of Human Rights, 
contributing editor, National Review, former official at the 
White House, and Departments of Justice and Energy during the 
Reagan and George H.W. Bush administrations.
    We are delighted that all of you are here. First let me 
take care of some business, I ask unanimous consent that all 
members of the subcommittee be permitted to place an opening 
statement in the record and that the record remain open for 3 
days for that purpose, and without objection, so ordered, and 
ask further unanimous consent that all witnesses be permitted 
to include their written statements in the record and without 
objection, so ordered.
    At this time, let me swear in all our witnesses. We swear 
in witnesses even across the Atlantic, but we understand you 
may want to define that yes. But, thank you for participating 
as all the other witnesses are, so if you would stand please.
    [Witnesses sworn.]
    Mr. Shays. Note for the record all of our witnesses have 
agreed to that, and in fairness the only other member from 
Parliament from the House of Lords was Lord Morris, who came 
and it was on the Gulf war on these issues, and it was 
delightful to have him and it is delightful to have you and it 
is delightful to have all the other members.
    Mr. Rollins, we will start with you. We are do the 5-minute 
rule. Could the staff move the timer and put it in between Mr. 
Rollins and put the other timer in between Mr. Lewis and Mr. 
Rivkin? We are trying not to hide that. We want them to see it.
    Right there is good. And let me just tell you how it works. 
It is 5 minutes, and then we will roll it over another 5 
minutes. We would want you not to take more than 10 minutes but 
it would be nice if you were closer to 5 more than the 10 but 
you have that time. I don't want to read fast.
    All right, Mr. Rollins you are on. We will do 5 minutes and 
then roll over for another 5 minutes and have you stop.

    STATEMENTS OF JOHN ROLLINS, SPECIALIST IN TERRORISM AT 
    INTERNATIONAL CRIME, FOREIGN AFFAIRS, DEFENSE AND TRADE 
 DIVISION, CONGRESSIONAL RESEARCH SERVICE; TOM PARKER, FORMER 
  BRITISH COUNTERTERRORISM OFFICIAL, ADJUNCT PROFESSOR, BARD 
 COLLEGE, EXECUTIVE DIRECTOR, IRAN HUMAN RIGHTS DOCUMENTATION 
CENTER; BARONESS FALKNER OF MARGRAVINE, MEMBER, HOUSE OF LORDS, 
    UNITED KINGDOM, FELLOW, INSTITUTE OF POLITICS, HARVARD 
   UNIVERSITY; JAMES A. LEWIS, SENIOR FELLOW, TECHNOLOGY AND 
 PUBLIC POLICY PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL 
  STUDIES; AND DAVID B. RIVKIN, PARTNER, BAKER AND HOSTETLER, 
MEMBER, U.N. SUBCOMMITTEE ON PROMOTION AND PROTECTION OF HUMAN 
 RIGHTS, CONTRIBUTING EDITOR, NATIONAL REVIEW, FORMER OFFICIAL 
    AT THE WHITE HOUSE AND DEPARTMENTS OF JUSTICE AND ENERGY

                   STATEMENT OF JOHN ROLLINS

    Mr. Rollins. Very good. Thank you, Chairman Shays, thank 
you Representative Kucinich, for allowing me to come speak 
about lessons learned from the recent arrests in London of 
individuals suspected of plotting to detonate explosive devices 
aboard U.S. airlines transiting to the United States.
    As the former Chief of Staff for the Office of Intelligence 
of the Department of Homeland Security, and now as a policy 
analyst at the Congressional Research Service, I was fortunate 
to have the experience of traveling on the morning of August 
10th. I say fortunate in that for most of the previous homeland 
security advisory system alert notifications, I was involved in 
the threat assessment and notifications phase of the advisory 
system, and never had the opportunity to experience the 
operational implementation efforts that accompanied these 
announcements. So I think I now have a new perspective.
    As I progress through my day's travels, a number of 
thoughts occurred to me regarding issues relating to the latest 
threats stream and efforts the United States has undertaken in 
the 5 years since 9/11, and the 3\1/2\ years since the 
establishment of the Department of Homeland Security. Based on 
the details regarding this latest terrorist plot concerning the 
use of liquid-based explosives to destroy multiple aircraft and 
kill thousands of passengers, I wondered why other modes of 
transportation, specifically rail lines, the most targeted in 
the post 9/11 environment, were not included in raising of the 
alert level.
    I also wondered if State and local communities in the 
private sector were apprised of the generalities of this threat 
stream during the early stages of the United Kingdom's 
notification to the United States or, as in past alert level 
change notifications, the calls were made concurrently to 
State, local private sector leadership, thus placing the 
entities that safeguard the homeland in a reactive rather than 
in a proactive mode.
    While recognizing the need for investigative and 
operational security 5 years post 9/11, the Federal Government 
continues to question and concerns persist regarding the role, 
State, local, private sector leadership can and should play in 
providing information and assistance during times of normal and 
heightened threat levels.
    As we sit here with the flights originating from the United 
Kingdom and U.S. domestic flights still designated at high 
risk, or orange in this testimony, I would like to briefly 
discuss three points that may be useful in attempting to assess 
lessons learned. First, the United Kingdom's investigation and 
the United States's response.
    On the evening of August 9th, British authorities arrested 
24 individuals ranging from age from 17 to 36 years old. Some 
suggested these arrests came as a terrorist cell was very close 
to the point of execution, while others suggested the plot was 
still in the planning stages as the airline reservations had 
not been made and two members of the cell did not have 
passports.
    Peter Clark, chief counterterrorism of the London 
Metropolitan Police, stated that they were still trying to 
ascertain the basics of terrorist's intentions, the number, 
destination and timing of the flights that might be attacked.
    Others wondered whether any of the suspects were 
technically capable of assembling the devices and detonating 
the liquid explosives while aboard the plane. The individuals 
arrested in London were known to authorities over 1 year ago as 
a result of numerous tips by neighbors after the July 2005 
London suicide train bombings. These local east London 
neighborhood tipsters were concerned about the intentions of a 
small group of angry young men.
    This investigation significantly intensified over the 
summer of 2006 with the use of human and technical collection 
efforts, including those of the U.S. intelligence community.
    The urgency was the result of the United Kingdom learning 
in the 2 weeks preceding August 10th that the cell may be 
conspiring to bring aboard an explosive device on the U.S. 
airliners transiting from the United Kingdom to the United 
States.
    During the post arrest investigation, it is reported 
several martyrdom videos were discovered. The motivation of one 
of the purported leaders of the cell is reported to be seeking 
revenge for the foreign policy of the United States and their 
accomplices, the United Kingdom and the Jews. In the martyrdom 
video, this cell member demands other Muslims join the jihad as 
the killing of innocent civilians in America and western 
countries as justified because they supported the war against 
Muslims and were too busy enjoying their lifestyle rather than 
protest the policies of the country. Another cell member 
remarked as well that the war against Muslims in Iraq and 
Afghanistan motivated him to act.
    Now, I would like to focus on the U.S. response to the 
London threat stream. Is it a model for future success? 
Department of Homeland Security Secretary Chertoff and other 
administration officials have stated that this was a remarkable 
example of coordination between two countries and that of the 
interagency council, U.S. interagency councils. And while the 
international and Federal Government coordination efforts are 
an example of success, a question remains whether the 
uniqueness of this United Kingdom-based terrorist plot lends to 
a model for future U.S. counterterrorism success.
    Was civil aviation receiving a great deal of attention, 
resources and deployed assets to counter today's threat? Can we 
expect the same level of security when a credible threat is 
directed against a less secure sector of our society?
    Will U.S. homegrown terrorists with or without 
transnational connections be recognized and detected by our 
international partners or our Nation's State, local and private 
sector community members? And while the U.S. flag air carriers 
and State, local, and private sector entities were notified of 
the cell's planning early on the morning of August 10th, when 
the alert level change was announced, a question remains 
whether this is the most effective threat notification model to 
follow for future credible threat streams.
    Recognizing once again the ever present balance between 
operational security and ongoing investigation, the potential 
for future intelligence gleaned from the suspect activity, the 
need to safeguard the homeland, one wonders what should the 
point, at what point should the scales tip to earlier involve 
effective State, local and private sector leaders? And a larger 
question, if such an earlier notification model were in place 
that recognized the value of information gathered at the State 
and local level, which agency in the U.S. Federal Government is 
charged with compiling seemingly disparate surveillance 
reports, suspicious individuals or group activity or general 
community irregularities?
    Last, what are the local communities or the terrorists 
plot, plan and undertake actions toward their objective of 
carrying out a terrorist attack? What is the Nation's 
involvement or of our local communities?
    Mr. Shays. Let me warn you, because you have a lot more to 
your talk, you want to try to find a way to round it out?
    Mr. Rollins. Yes, Mr. Chairman.
    Mr. Chairman, you spoke of British tools that the United 
States may adopt. One of the tools is community awareness and 
community involvement.
    Though the London threat stream was certainly not perfect 
intelligence, the specifics of the plan known to the U.S. 
authorities far exceeds the specificity of the vast majority of 
information normally assessed regarding threats to the U.S. 
national security.
    The knowledge of the type, location and general timing of 
the potential attack, and the ability to safeguard the target 
and passengers due to post 9/11 civil aviation safeguards far 
exceed the scenarios we will most likely face in the future.
    In sum, Mr. Chairman, I am proposing a homeland security 
citizen corps that allows for the Federal Government to work 
with State and local authorities to assist, and local citizens 
identifying irregularities in their neighborhood, and thus 
having a reporting mechanism to report that back to the Federal 
Government.
    The question remains, the Federal Government, which Federal 
Government agency is responsible for putting these dots 
together? In closing, whether one ascribes to the belief that 
corporate Al Qaeda is continually reconstituting with the 
objective of carrying out a catastrophic attack or the Nation 
will soon experience deadly attacks by those ideologically 
aligned, past terrorist planning efforts including the most 
recent London threat stream offer a lesson that citizens in 
their local community are likely to be the first to recognize 
signs of terrorist activity.
    This concludes my opening remarks and I look forward to 
your questions.
    Mr. Shays. Thank you, very much. And your full statement 
obviously will be in the record.
    [The prepared statement of Mr. Rollins follows:]

    [GRAPHIC] [TIFF OMITTED] T4957.007
    
    [GRAPHIC] [TIFF OMITTED] T4957.008
    
    [GRAPHIC] [TIFF OMITTED] T4957.009
    
    [GRAPHIC] [TIFF OMITTED] T4957.010
    
    [GRAPHIC] [TIFF OMITTED] T4957.011
    
    [GRAPHIC] [TIFF OMITTED] T4957.012
    
    [GRAPHIC] [TIFF OMITTED] T4957.013
    
    [GRAPHIC] [TIFF OMITTED] T4957.014
    
    [GRAPHIC] [TIFF OMITTED] T4957.015
    
    [GRAPHIC] [TIFF OMITTED] T4957.016
    
    [GRAPHIC] [TIFF OMITTED] T4957.017
    
    [GRAPHIC] [TIFF OMITTED] T4957.018
    
    [GRAPHIC] [TIFF OMITTED] T4957.019
    
    [GRAPHIC] [TIFF OMITTED] T4957.020
    
    [GRAPHIC] [TIFF OMITTED] T4957.021
    
    [GRAPHIC] [TIFF OMITTED] T4957.022
    
    [GRAPHIC] [TIFF OMITTED] T4957.023
    
    [GRAPHIC] [TIFF OMITTED] T4957.024
    
    [GRAPHIC] [TIFF OMITTED] T4957.025
    
    [GRAPHIC] [TIFF OMITTED] T4957.026
    
    [GRAPHIC] [TIFF OMITTED] T4957.027
    
    [GRAPHIC] [TIFF OMITTED] T4957.028
    
    [GRAPHIC] [TIFF OMITTED] T4957.029
    
    [GRAPHIC] [TIFF OMITTED] T4957.030
    
    Mr. Shays. Mr. Parker.

                    STATEMENT OF TOM PARKER

    Mr. Parker. Thank you very much, Mr. Chairman. I wanted to 
preface my remarks by saying I am really approaching this 
subject, primarily as an academic. I am talking on my own 
behalf, not representing any organization.
    I wanted to address each of your questions in turn. Some in 
more detail than others because I am conscious there is a great 
deal more expertise in some of these areas than mine. I wanted 
to start by talking a little bit about how Britain approaches 
counterterrorism conceptually.
    This is, I think, the most significant difference between 
the current U.S. approach and the British approach.
    We have, since 1974, in the United Kingdom, pursued a 
doctrine of criminalization. Terrorism is treated essentially 
as a criminal act, not as an act of war or something outside of 
criminal activity. It is seen primarily as a criminal act.
    This doctrine emerged largely as the result of lessons 
learned in the early 1970's in Northern Ireland where Britain 
initially treated the troubles as essentially almost a colonial 
insurgency. It had tried to apply the same military tactics 
that had been used successfully in Malaya, less successfully in 
other colonial emergencies. And by and large, it was 
tremendously unsuccessful.
    Measures such as internment without trial, coercive 
interrogation were introduced in joint operations, mounted by 
the military and the police. And ultimately, far from reducing 
the level of violence in the province, there was a substantial 
escalation. It went from a situation in 1971, where I think 21 
people were killed in the first 8 months of the year. These 
measures were introduced. That figure jumped to 147 people by 
the end of the year, and to 460 by the end of the following 
year.
    Mr. Shays. 460?
    Mr. Parker. 460 the following year. Most studies done of 
this period on the mobilization of nationalist opinion stress 
the impact the British military activity had on the local 
communities.
    There was a change of government in 1974, labor government 
came in and the strategy changed. The strategy that was adopted 
was one of criminalization, Ulsterization and normalization. 
The idea was to try and back off putting military on the 
streets. The military remained clearly in a support role to law 
enforcement. But the idea was to put law enforcement back in 
control and----
    Mr. Shays. Did you say criminalization, and another word?
    Mr. Parker. Ulsterization, normalization, it is a slogan 
rather than a prescription. But a popular one at the time.
    And the idea was to take a local approach and try and 
deviate as little from the criminal norm as possible.
    Clearly, the United Kingdom recognizes that terrorism is 
not ordinary crime. In fact, in Northern Ireland, people refer 
to the distinction, operational police officers will talk about 
ODCs, ordinary decent criminals, to distinguish them from 
provisional IRA members. So we don't see it just as purely 
ordinary criminality. We see it, perhaps, as extraordinary the 
criminality, criminality that poses a threat that doesn't 
require a degree of extraordinary response, but one that is 
essentially a departure from the norm and that we will return 
to the norm as soon as that emergency is brought under control. 
And that is why up until the end of the 1990's, you essentially 
had only a series of temporary instruments that introduced 
counterterrorist legislation. It is only with the Terrorism Act 
2000 that changes.
    And finally, in the United Kingdom you have a legal 
architecture that addresses terrorism directly as a phenomena. 
Up until that point, you simply had short-term emergency 
measures. In fact, under British law, until about 2000, it was 
very difficult for you to be considered a terrorist unless you 
were from Northern Ireland or one of the subscribed groups that 
identified during the troubles as causing problems in the 
province. That made it very difficult to allow the United 
Kingdom to address other terrorist groups that were operating 
on their soil particularly when allied countries, France 
notably in the early 1990's were very keen to see the British 
crack down on Algerian extremists operating in the United 
Kingdom. Very difficult for us. We just didn't have the legal 
architecture at the time.
    But the basic, the message here that I am putting across, I 
think, is simply that we treat it as a crime, and we deviate 
from criminal norms purely to the extent that we think it is 
necessary to ultimately achieve prosecution, successful 
prosecutions. So I think that is the main conceptual 
difference. I am conscious my time is already running out.
    Mr. Shays. You have another 5 minutes, so keep going.
    Mr. Parker. Thank you. Organizations is the other big 
difference. Clearly, the United Kingdom is much smaller than 
the United States. We have a fraction of the number of police 
forces, I think it is 18,000 different law enforcement agencies 
in the United States. It is essentially less than 60 in the 
United Kingdom. This clearly makes coordination easier.
    The other difference is we have a central coordinating 
point in the security service that has undisputed primacy 
outside of the province of Northern Ireland for combating 
terrorism, which enables one government agency to focus on the 
terrorist threat with laser-like precision and can focus right 
in and they can devote their resources to trying to tackle it.
    They also act as the center of the hub, and they make sure 
that intelligence and information, background material is 
disseminated to everybody who needs to know it. Because it is 
ultimately supporting a law enforcement structure, that means 
you have a direct link from the security service effectively 
all the way down to the Bobbie on the beat, the two don't 
interact, but there is a network that cascades information down 
with the appropriate protections for sensitive information. So 
ultimately, we can do things like outreach and have an impact 
on Muslim communities around the United Kingdom in a targeted 
manner, using local safer neighborhood teams, local community 
police officers, as our very first sort of eyes and ears on the 
ground. And that is great because these are the people who help 
communities. These are the people who help parking around 
mosques. These are the people who help local kids when they are 
in trouble, help local community leaders defuel tensions in 
neighborhoods. And this is a positive police image. This isn't 
flak-jacketed arms toting police officers.
    These are soft, often civilian officers in just plain 
clothes, not carrying weapons or anything like that who spend a 
lot of time in the community. And so we have this very nice 
integrated system that goes from that to international 
intelligence coordination.
    Overarching the security services is the joint Intelligence 
Committee. That pulls the entire intelligence community 
together, make sure that intelligence that is provided from 
overseas or from all the different collection methods, goes to 
one coordinating point in the security service for assessment 
and then dissemination. So it is a very tightly coordinated 
system.
    I should add, though, that it has taken a long time to get 
to that point. You know, we have had 30 years to refine this 
system and it has taken most of those 30 years to get to this 
point so, in offering it up as a quick fix, I would add the 
proviso that you could put the architecture in place, but it 
doesn't necessarily mean that people admire the building for 
some time.
    I wanted to touch also on the difference between civil 
liberties in the United States and the United Kingdom.
    I think there is a tendency in the United States to think 
that the United Kingdom doesn't have laws that protect civil 
liberties, that we essentially have some vague series of 
understanding----
    Mr. Shays. You have this long memory that goes back to a 
few years ago.
    Mr. Parker. Yes, a revolution came up in my last 
conversation in the House committee.
    Mr. Shays. That's all right. Your prime minister reminded 
us he burned the building down.
    Mr. Parker. Having spent two fourth of Julys on American 
military bases now, I think I heard every joke on the subject. 
I usually say it proves one of the great lessons of history, 
you don't send Germans to fight Englishmen and leave it at 
that.
    Basically we have a very strong human rights regime in the 
United Kingdom and it is very strong because it is enforced 
from without the United Kingdom via the Europe court of human 
rights. The European convention on human rights is enshrined in 
British law now, thanks to the Human Rights Act of 1998. So 
that means that every article in the convention is embedded in 
British legal practice. There is also an enforcement mechanism 
in Strasburg, where foreign judges sit in judgment on things 
done by the British state. It is a binding enforcement 
mechanism. That is incredibly powerful. It is almost entirely 
immune from political pressure--certainly domestic political 
pressure. And it holds states to a universal standard, a 
universal standard that is interpreted with what is known as a 
margin of appreciation, which allows each state a certain 
degree of interpretation in the way that it institutes the 
convention provisions.
    But that said, any egregious breach is very quickly 
referred to Strasburg and very quickly adjudicated. And the 
United Kingdom has found itself in many circumstances before 
the European court to defend counterterrorism practices, both 
operational practices and specific techniques such as coercive 
interrogation.
    So that is a very powerful mechanism, every bit as powerful 
I submit as the U.S. Supreme Court in overseeing the way we 
behave. So quite the reverse of the sort of typical perception.
    I am not going to touch on the impact British foreign 
policy has had, because I think Baroness Falkner is in a much, 
much better place than I to comment on that.
    Mr. Shays. Let's make sure that if we don't ask you that, 
you do bring it up later on, so you do that and we will segue 
to the Baroness. You have the floor. And we need to put that 
mic in front of you.
    Just one mic would be good, so choose your weapon there and 
you need to lower it down.
    Am I allowed to tell a Baroness these instructions? Is this 
allowed?
    [The prepared statement of Mr. Parker follows:]

    [GRAPHIC] [TIFF OMITTED] T4957.031
    
    [GRAPHIC] [TIFF OMITTED] T4957.032
    
    [GRAPHIC] [TIFF OMITTED] T4957.033
    
    [GRAPHIC] [TIFF OMITTED] T4957.034
    
    [GRAPHIC] [TIFF OMITTED] T4957.035
    
    [GRAPHIC] [TIFF OMITTED] T4957.036
    
    [GRAPHIC] [TIFF OMITTED] T4957.037
    
    [GRAPHIC] [TIFF OMITTED] T4957.038
    
    [GRAPHIC] [TIFF OMITTED] T4957.039
    
    [GRAPHIC] [TIFF OMITTED] T4957.040
    
    [GRAPHIC] [TIFF OMITTED] T4957.041
    
    [GRAPHIC] [TIFF OMITTED] T4957.042
    
    [GRAPHIC] [TIFF OMITTED] T4957.043
    
                 STATEMENT OF BARONESS FALKNER

    Ms. Falkner. Mr. Chairman, you are in the chair. I am in 
your hands. Let me start, Mr. Chairman, by thanking you for 
your very warm welcome. It is very good to be here and I hope I 
can, to some extent, illuminate the discussions a bit from the 
other side of the pond. I--as means of caveat, I have put my 
written evidence to you, but I would like to just point out, 
and wish the committee should note, that I am speaking in a 
personal capacity. In that respect, it neither represents the 
findings of the Prime Minister's extremism task force nor, 
indeed, those of the British government.
    In your inquiry today, Mr. Chairman, I think they are 
looking at the motives planning and tactics of the recent 
London bomb plotters, the bomb plotters as of August 10th, 
alleged bomb plotters, I think all we can do is speculate. We--
people have been arrested. Some have been charged. Some have 
been released. And due process will take its course. But we are 
not likely to know the details, particularly of their motives 
and planning, until we come to court, and that is unlikely to 
be before the end of 2007, some say early 2008. However we have 
an official report of the London bombings of July 7, 2005.
    And if we assume that some of the characteristics are 
similar, then we can also assume that we can draw some lessons 
from that.
    In that case, we found out that most of the suspects were 
mainly of Pakistani origin, they were male, and second-
generation British citizens. Three of those four in that case 
were from the same generation ethnic origin and social 
background.
    They were not educational high fliers, and they had become 
religious in the period preceding the events of 7/7.
    They became radicalized it is assumed, in the period after 
9/11, when intense media attention would have focused on Al 
Qaeda. And they would have become more aware of arguments about 
and in the Muslim world about western foreign policy.
    The questions to whether recent suspects were directed from 
abroad is, I think, again, speculative, but it is likely that 
some element of indoctrination and support could have come from 
abroad. This is unsurprising.
    Much has been made in Britain and in the U.S. media of 
home-grown terrorists.
    I would argue that home-grown terrorism is not a new 
phenomenon. In fact, is most terrorism, it is the state's own 
citizens that have carried out those egregious acts. Other 
examples of recent home-grown terrorism include France, Canada, 
only very recently, Indonesia, Turkey and several countries. 
Let us not also not forget that in the U.S.A. itself, of course 
Timothy McVeigh and John Walker Lindh were both U.S. citizens.
    I think it is a matter of prevention and a matter of 
loyalty as to whether one's own citizens decide to carry out 
certain egregious acts or not. And I don't think any one 
country is particularly blessed to have citizens that don't 
disagree with its policies to the extent that they carry out 
those acts.
    To the extent that British and U.S. laws respectively 
hinder or help terrorism prevention, I think, Mr. Chairman, 
there is a philosophical difference in the U.K. and U.S. 
approaches to legislation since 9/11. In the United Kingdom, we 
still have a strong emphasis on the common-law tradition of 
jurisprudence, and I would argue that we are coming to a 
consensus that we probably have sufficient legal instruments in 
place, and we need to see how they bear down.
    We have passed two controversial pieces of legislation only 
in the last 2 years, after much debate. And if we see a third 
piece of legislation now, as it has been hinted to by the home 
secretary, I think we are going to see that it is a 
consolidation of the last four acts rather than breaking 
particular new ground.
    What is very clear, though, I think across all sides in 
Parliament, if there is further legislation likely, it will 
have to undergo prelegislative scrutiny on a full evidential 
process prior to being tabled in parliament. There is no 
stomach any longer for rushed bills.
    One of the innovations that we have in the U.K., which I 
think is of great value in terms of public confidence and 
transparency in the working of terrorism legislation, is the 
establishment of the independent reviewer of terrorism 
legislation. The U.K. independent reviewer at the moment is 
Lord Carlisle of Berriew QC. He has been the independent 
reviewer since the establishment of the 2000 Terrorism Act.
    He makes judgments of the working of the acts, from the 
perspectives of all the interested parties, including those, of 
course, who might have been arrested under the provisions of 
the various acts.
    The effect of having an independent reviewer is that 
interested parties have the ability to feed into what they see 
as a nonpartisan process of assessment to the provisions of the 
act.
    As I implied, this increases public confidence and provides 
a measure of how provisions are bedding down in practice.
    He has sight of sensitive material and can seek insights 
into why certain actions are taken by administrative 
authorities. His reports are made public and he encourages 
public feedback and comment.
    In terms of U.S. legislation and its effectiveness in terms 
of terrorism, I believe that U.S. law and or the lack of 
adherence to international law in the United States would not 
be acceptable in the U.K. context. As for practical issues 
involving due process, there is a strong view within British 
opinion that adherence to due process, including criminal 
proceedings, as pointed out by Tom Parker, culminating in trial 
and conviction is the most suitable way forward, and this is 
across the political spectrum that this view is held.
    Apropos, the recent arrests of terrorist suspects after 10 
August and to do with issues, acts preparatory to terrorism, 
this is an innovation of the 2006 act--well it is not an 
innovation to be honest, it was there in the 2000 act, but it 
has been broadened to include acts preparatory to terrorism, 
the suspects arrested in August were arrested under some of 
these provisions, and it will be very interesting to see 
whether now these very wide ranging offenses, which are 
available are used, and to what extent they play a part in 
gaining convictions if the latter are secured.
    To the extent that U.K., and I would argue, U.S. foreign 
policy, sometimes some of us think they are almost 
indistinguishable, to the extent that U.K. foreign policy has 
contributed to what has been called home-grown terrorist 
activity, I am skeptical of whether there is a causal link 
between our foreign policy. I would rather see a consequential 
link. And what I mean by that is that I think foreign policy 
facilitates indoctrination.
    Mr. Shays. These are just bells that tell us when the House 
opens up and when there are votes and all of that. And I have 
been here 19 years and I still haven't figured it out. So don't 
you worry about it.
    Ms. Falkner. OK, as you will see my evidence, I detail the 
extent to which British citizens were radicalized from the 
1990's onwards. And I don't think that the conduct of foreign 
policy, in terms of engaging in the Iraq war, is necessarily a 
causal link for terrorism. But it is undoubted to me that it 
has effected an increased radicalization and facilitate 
indoctrination.
    As I say in my written evidence the extent of which conduct 
of foreign policy continues to divide the government and the 
country cannot be understated.
    Four western Muslims and there are 20 million of us, the 
facts of hypocrisy, the practice of double standards and the 
contempt for international law as practiced by the United 
States, and to a lesser degree, the U.K. on European countries 
remains baffling. The question asked in the U.K. now is what 
the course of events might be if the U.K. were to withdraw its 
forces from Iraq irrespective of what the United States might 
do. I would say that the consensus is building across the 
political spectrum that a more independent foreign policy is in 
our country's interest.
    How do U.K. civil liberties laws compare to those in the 
United States? In winding, in summing up I would say that I 
think I really do want to comment on U.S. Constitutional 
structure as it is so different from the U.K., particularly as 
interpreted since 9/11.
    If that makes comparison extremely difficult, the current--
suffice it to say that the tendency currently in the United 
States to move away from its obligations in international law 
and its own constitutional safeguards is regrettable.
    I am sure you will want to continue this discussion in your 
questions. And on that note, I will sum up, Mr. Chairman. Thank 
you.
    Mr. Shays. Thank you, very much, Baroness.
    [The prepared statement of Ms. Falkner follows:]

    [GRAPHIC] [TIFF OMITTED] T4957.044
    
    [GRAPHIC] [TIFF OMITTED] T4957.045
    
    [GRAPHIC] [TIFF OMITTED] T4957.046
    
    [GRAPHIC] [TIFF OMITTED] T4957.047
    
    [GRAPHIC] [TIFF OMITTED] T4957.048
    
    Mr. Shays. Dr. Lewis.

                    STATEMENT OF JAMES LEWIS

    Dr. Lewis. Thank you, Mr. Chairman. And I would like to 
thank the subcommittee for inviting me to testify on this 
important subject and for the valuable work it has done in this 
and other areas.
    We find ourselves in a fierce ideological conflict with a 
new kind of opponent. The jihadis remain skillful and 
inventive, and I think that is one of the things that the 
London plot showed. One thing they use is commercial networks 
for travel and communications and finance. And this helps them 
create a global presence so they can plan in Pakistan and 
attempt to strike in the U.K. or the United States.
    Winning this ideological struggle will take years. In the 
interim, the United States and other nations must be able to 
protect themselves from attack. The U.K.'s success this August 
provides useful lessons, first, the reliance of the jihadis on 
global travel and communications networks is a vulnerability. 
The U.K. arrests show that surveillance of travel, finance and 
communications is essential for effective counterterrorism. The 
use of commercial networks by terrorists creates an opportunity 
for western intelligence services that we should take advantage 
of.
    Second, many countries have refocused the work of their 
intelligence and security services to meet the threat posed by 
Jihad. The work of these services, particularly in domestic 
intelligence, is our main defense against terrorism.
    Domestic intelligence, which is the collection of 
information within the Nation's borders for security purposes, 
often involving clandestine methods, and including collection 
on citizens who have not violated any law, is essential for 
counterterrorism.
    Third, the arrest show that international cooperation has 
improved, but sustaining this cooperation will be a major 
challenge for the United States.
    This combination of network surveillance, domestic 
intelligence and international cooperation is what thwarted the 
plan to blow up airliners over the Atlantic. The success is 
encouraging and points to the ingredients of an effective 
defense.
    It also led to renewed calls for an American MI-5, and I 
should note that MI-5 of course in the U.K., is known as the 
security service.
    These calls have appeared regularly since September 11th, 
and they led President Bush to direct the FBI to merge its 
counterterror and counterintelligence division into a new 
national security branch. Expanding the FBI's role makes sense. 
It avoids many of the problems that a new agency could face. It 
avoids upheaval. But many people doubt the FBI's enthusiasm for 
this task and these doubts explain why we continue to hear 
calls for an American MI-5.
    That said, Mr. Chairman, restructuring the FBI might be as 
far as the United States can go without significant 
constitutional issues. The differences between how the United 
States and U.K. conduct counterterrorism grow out of very 
different constitutions. While both countries share a heritage 
of common-law, there are significant differences that have 
emerged.
    First, the separation of powers is much less of an issue in 
a Parliamentary system. And the British official known as the 
home secretary, whom you've heard very little about, has much 
greater discretion in proving electronic and physical 
surveillance in the counterterrorism investigation.
    The home secretary heads the home office, a ministry that 
combines many of the functions of both justice and homeland 
security.
    We don't have an equivalent.
    The relationship of the security service to the local 
police is also very different, as you have already heard.
    Britain has the national police service. The home secretary 
has a degree of control and oversight over both local police 
and domestic intelligence. We could not match this in the 
United States, given our Federal structure.
    Based on its experience in Northern Ireland, the U.K. has 
gone through several efforts to refine and adjust its anti 
terror laws. The most important is the Regulation of 
Investigatory Powers Act [RIPA], which is really a good name 
for counterterrorism law. RIPA spells out the conditions for 
both electronic and physical surveillance and it gives 
considerable authority to the U.K. Government and to the home 
secretary. It also establishes independent oversight bodies to 
protect civil liberties.
    The prevention of terrorism acts, which you have heard 
about from some of the previous witnesses, also provide 
important authorities to prevent terrorist acts before they 
occur, including authorizing the home secretary to impose 
control orders that restrict the movements and activities of 
suspected terrorists.
    An effort to duplicate RIPA and the Terrorism Act in the 
United States would produce objection if not consternation. In 
a similar vein, I believe it calls for an equivalent to the 
Official Secrets Act that would also face serious 
constitutional objections.
    One crucial difference worth noting is that the U.K. did 
not have the rigid separation the United States has between 
foreign and domestic intelligence. Watergate era concerns led 
to reforms in the 1970's that divided our authorities for 
domestic and foreign intelligence, increased importance of 
domestic intelligence in the fight against terrorism, makes 
this divide problematic.
    On the other hand, a change in the existing rules governing 
domestic surveillance could put civil liberties at risk. This 
makes any effort to refine and adjust U.S. anti terror and 
domestic intelligence laws complex and challenging. Let me note 
that the British approach is not foolproof. The UK's difficulty 
in assimilating its Muslim immigrants has created a major 
vulnerability. Their recent successes must be weighed against 
these larger problems in immigration and assimilation, and in 
this, the United States may have an advantage. However, our 
Federal system and the separation of powers means that the 
United States cannot duplicate Britain's security service.
    There are useful lessons we can draw from the U.K., and 
their experience, I would say these include lowering the 
threshold for approving terrorist surveillance, or surveillance 
of potential terrorists, a greater dependence on the 
legislative rather than judicial oversight, and better 
integration of intelligence, police, and communications 
surveillance into an effective counterterrorism program.
    Now, Americans don't like domestic intelligence as you 
noted, Mr. Chairman, this dislike goes back to probably some 
time in the 1770's, and they have made efforts to make sure 
that these kinds of activities have good oversight and are well 
restricted. However, an intelligence system that was designed 
for the 1970's is not suited for today's conflict. We need to 
do more to improve our domestic intelligence capabilities.
    On a final note, Mr. Chairman, and in conclusion, let me 
point out that the combination of surveillance, domestic 
intelligence, and international intelligence cooperation can 
provide for effective counterterrorism. We should recognize 
however that defeating terrorism requires more than an 
effective defense.
    It will require convincing both the jihadis and western 
skeptics that terrorism is not a solution. Thank you. I look 
forward to your questions.
    Mr. Shays. Sorry we left that red light on when we should 
have turned it over, but are you complete?
    Dr. Lewis. I took the 5-minute rule seriously, sir.
    Mr. Shays. Thank you, Dr. Lewis.
    [The prepared statement of Dr. Lewis follows:]

    [GRAPHIC] [TIFF OMITTED] T4957.049
    
    [GRAPHIC] [TIFF OMITTED] T4957.050
    
    [GRAPHIC] [TIFF OMITTED] T4957.051
    
    [GRAPHIC] [TIFF OMITTED] T4957.052
    
    [GRAPHIC] [TIFF OMITTED] T4957.053
    
    Mr. Shays. I am going to have you give back that mic to Mr. 
Parker. When we start the question and I am going to have you 
take that mic. Thanks.

                  STATEMENT OF DAVID B. RIVKIN

    Mr. Rivkin. Mr. Chairman, ranking member, it is a pleasure 
to be with you.
    British success in disrupting the plot to attack airplanes 
over the Atlantic has been much celebrated. The question of 
what has enabled that success has also been extensively 
discussed and has not been particularly disputed, at least on 
this side of the Atlantic. By comparison, the question, what 
losses can we draw from the British experience, especially 
taking into account the considerable differences between our 
institutions and legal regimes, has been more controversial.
    In my time, I hope to run through a few basic aspects of 
it. One is a nature of threat and unavoidably some overlap, 
being the last one to speak between the points already been 
made and what I am planning to say, but it is fair to say on 
the nature of the threat side that both the United States and 
U.K., quite prominently on the list of targets envisioned by 
various radical groups, in both instances, the threat is mixed 
in nature and comes from individuals who reside in the 
countries involved, and I refer to the second generation or by 
foreign personnel.
    It is somewhat hazardous to draw generalizations in this 
area, especially you in the presence of British colleagues, but 
it seems to me that it is generally accepted that the Muslim 
communities in Britain is more radicalized and feels more 
alienated from the British mainstream, thereby presenting 
perhaps somewhat more fertile ground for terrorist recruitment 
than the case of the United States.
    In the United States the Muslim community is better 
integrated, generally more prosperous, most of its mainstream 
representatives are supportive of counterterrorism policies, 
and the threat to the United States seems to be more driven by 
foreign entities and personnel.
    But I would submit to you one can make too much of these 
differences. I certainly don't agree with a notion that has 
been advanced by some observers that British attacks are 
largely driven by domestic factors, poverty, sense of anger 
discrimination or the foreign policy side. In fact, to me, it 
is impossible to decouple the activities by various jihadi 
organizations in the Middle East, be it Al Qaeda, Taliban, 
Iraq-based jihadis, or even exploits of Hezbollah and Hamas 
from the activities of home-grown terrorists, because they 
clearly serve as a source of inspiration and technical 
expertise, even to those home-grown terrorists that never 
travel to an Al Qaeda camp, or even met an Al Qaeda recruiter. 
In my opinion, the global war on terrorism is truly seamless.
    Now again, it is hazardous to delve into criminal 
investigations, not being a Brit myself, but I would submit to 
you that the British law enforcement officials in toto clearly 
have a more robust ability to investigate suspected terrorist 
persons than the U.S. police agencies. This is true in the 
range of areas where you heard about tighter cooperation, 
intelligence police services, no wall of separation to foreign 
intelligence, and law enforcement functions that we had prior 
to September 11th. Very important, no need to meet the strict 
requirement of probable cause to obtain warrants that the U.S. 
investigative bodies must satisfy under the bill of rights, in 
the British case, you get reasonable suspicion. We heard about 
those extraordinary tools, particularly the control orders to 
be fair is a disputed body in Britain itself, but in my 
opinion, I am corrected by my British colleagues, it is 
primarily about the scope of such controllers because you had 
some, Mr. Chairman, very exceptional controllers that really 
put people sort of 24-hour restrictions. And there is 
restrictions as to travel, daily contacts and meetings, not 
about the control orders of such.
    These control orders are very useful, because obviously 
what we have been able to do not only isolate dangerous 
individuals, but sort of precipitate folks who may be hiding 
from you because if you impair the ability of one set of people 
to function that requires others to step more into the 
limelight.
    Profiling it is ironic to me that while Britain, I think 
again, all generalities are hazardous leans a little bit more 
to the left than does the United States, the British attitude 
toward ethnic and religious profiling appear to be more 
pragmatic than the United States the very idea of profiling, 
which is a means of allocating scarce law enforcement and 
surveilling resources is a virtue taboo, I think in Britain law 
enforcement and intelligence officials can better target 
communities of interest.
    And they certainly are able to infiltrate more directly the 
extremist portions of a community without me having to worry 
about the absence or presence of a criminal predicate which by 
the way Mr. Chairman is still very much the FBI standard, even 
in the post-September 11th environment for FBIs to rely mostly 
on informers.
    Privacy, the British have certainly virtually invented the 
notion of privacy, the saying the Englishman's home is his 
castle, can be traced at least to 16th century, the concept is 
not as broadly defined in law and politics as in America most 
public spaces in Britain are wired for surveillance.
    And by contrast in the United States, we are taking the 
privacy well beyond the basic contours of the fourth amendment 
and progressed to the point where individuals seriously 
consider to have a privacy interest in, essentially can be 
described as public activities and activities in the public 
space.
    Secrecy, a lot less, allergic attitude toward secrecy, here 
we certainly have people who believe that any government action 
to act secretly or punish people for disclosing sensitive 
information be fundamentally illegitimate. I am not going to 
repeat the business about cooperation and MI-5 being the senior 
service. There is also less of a culture of leaks and sort of 
the bureaucratic warfare seems to be more manageable and less 
threat recital than the one we experience in Washington.
    Excellent discussion, but we heard about the experience not 
that one would wish that upon anybody, but certainly, 30 years 
of being able to refine the coordination between military and 
law enforcement agencies in the context of fighting that area 
has been very useful.
    Let me just briefly summarize the lessons, and of course, 
there are some things we cannot adopt. And the official secrets 
clearly would be antithetical to our first amendment values and 
would not pass, if it were to pass it would be struck down.
    But there are some things we can clearly do, and in my 
opinion, it is not the new laws and certainly not the question 
of dispensing of our constitutional heritage, and it is not 
even bureaucrat institutions and I know about the criticisms of 
FBI. To me it is not particularly surprising that FBI has 
traditionally been a law enforcement institution, is incapable 
of replicating this pure and sort of crystalline focus on 
counterterrorism, but MI-5 would do and, in an ideal world, I 
don't think it would be unconstitutional to have an MI-5 
organization, but I think that pragmatism is an essential 
attribute of good statecraft.
    To me, the notion that we can really recreate an MI-5 type 
entity would be so difficult to stomach, it would be 
politically, legally and bureaucratically impossible, in my 
opinion, would be not worth trying. What is worth trying, and 
even here I am not kidding myself into believing it would be 
easy, is to change not our constitution but at least political 
and cultural discourse in the areas of privacy, secrecy and 
profiling.
    What I would say, suggest, is we can and should accord the 
government, difficult as it may be for some, greater 
investigative latitude and accept some compromise of privacy in 
exchange for greater security. At the very least, we should 
launch a serious national debate about it, a debate conducted 
in open and candid fashion instead of slamming hard at people 
espousing different positions.
    I would like to finish by pointing out that the critics of 
the administration would think that already we have had too 
much of a tilt toward public safety and away from individual 
liberty, often misquote Benjamin Franklin as having said that 
those who would ``trade liberty for security deserve neither.'' 
That is actually not a correct quote. What Franklin actually 
said was a balancing test, they that would give up essential 
liberty to attain a little temporary safety deserve neither 
liberty nor safety. In my opinion, in fighting this terrorism, 
British appear to be striking this balance reasonably 
successfully and our balance is less than perfect. Thank you, 
very much.
    Mr. Shays. Thank you, Mr. Rivkin.
    [The prepared statement of Mr. Rivkin follows:]

    [GRAPHIC] [TIFF OMITTED] T4957.054
    
    [GRAPHIC] [TIFF OMITTED] T4957.055
    
    [GRAPHIC] [TIFF OMITTED] T4957.056
    
    [GRAPHIC] [TIFF OMITTED] T4957.057
    
    [GRAPHIC] [TIFF OMITTED] T4957.058
    
    [GRAPHIC] [TIFF OMITTED] T4957.059
    
    [GRAPHIC] [TIFF OMITTED] T4957.060
    
    Mr. Shays. We are going to start with Mr. Kucinich with 
you. Eventually, we need to go to the floor of the House so we 
will start with him.
    Mr. Kucinich. Thank you very much Mr. Chairman. Mr. Rivkin, 
the suggestions that you have, and the observations that you 
have with respect to privacy and secrecy and civil liberties, 
how do you help those hold in a condition where there is 
widespread belief that the government isn't telling the truth 
about the conditions that led to the imposition of such changes 
in constitutional governance?
    Mr. Rivkin. Mr. Kucinich, I appreciate the question. It's 
the question I often get asked, certainly in the public sphere 
when I speak in radio and television.
    My answer to that is--is as follows: I'm not going to try 
to convince folks to change the opinion of the Bush 
administration, but what I usually say is the political portion 
of our government, our national security establishment, is 
tiny. Most of the people you interact with is as a citizen, 
career, civil officials at the State, local and Federal level, 
and it's a little unfair, whatever one thinks about George W. 
Bush or Dick Cheney, to impute to the career civil servants any 
degree of exaggeration, bad faith.
    In fact, I think the British are a perfect example. 
Congressman, to be perfectly rational about it, Tony Blair is 
hardly more popular than George W. Bush, but yet the British 
don't seem to have a problem distinguishing between cooperating 
with a particular MI5 or Scotland Yard official, whatever you 
think about Tony Blair. We seem to be painting everything with 
a broad brush.
    Again, I don't want to turn this into a debate on Iraq, and 
I obviously don't agree that the Prime Minister and this 
administration has lied, but even if we assume that it did what 
does that have to do with a terrorist investigation in Detroit 
conducted by career officials, and I can tell you, in my 9 
years in government I've not met anybody who was not dedicated 
on the career side, sincere, law abiding. So, to me, it just 
doesn't follow, whatever your assessment of the role or 
strategic aspects of American foreign policy, why it should 
induce people to cooperate less with our law enforcement 
entities.
    Mr. Kucinich. You didn't answer my question, and that is 
that how do you establish the legitimacy of regimes for privacy 
and secrecy and retrenchment of civil liberties, the retraction 
of civil liberties, if they're being offered under 
circumstances where the credibility of the overarching policies 
themselves have been under substantive attack and even have 
been refuted.
    Mr. Rivkin. Well, I would--all right. Let me try. I 
understand. Let me try it a little differently.
    It seems to me that you'll have to look at the nature of a 
threat. If one seriously believes we're facing a grave 
existentialist threat, then whatever one might think about the 
wisdom of like--of a particular policy does not negate the need 
to change the balance between liberty and order because the 
threat is very serious. Let me submit to you and the quote, you 
know, from a pretty well-known book by late Chief Justice 
Rehnquist called All Laws But One.
    Throughout American history we have always struck a 
different balance, Congressman, between liberty and safety, and 
safety is really nothing more than collective liberty, 
collective safety. It's not really the government versus the 
individual. It's public safety versus individual safety, public 
liberty versus individual liberty. We buried this. It ebbed and 
flowed. It's always been the case.
    I would submit to you that one needs to tell the American 
people and have a serious dialog that there's nothing 
exceptional about restricting individual liberty in the way it 
was not restricted 15 years ago, and if we're successful in 
this war, God willing, 10 or 15 years from now, we may go back 
to the peacetime ballots. To me, it just is not very useful to 
sort of take the position that because you disagree with a 
particular administration, the particular thrust of their 
policies, that nothing needs to be done.
    It reminds me, during the cold war you had a lot of people 
who would harp about waste, fraud and mismanagement in the 
Defense Department, $900 toilet seats and what not, and most 
people typically were against defense spending, and I frankly 
think it's ludicrous because what everyone thinks about the 
wisdom of the particular procurement decisions had nothing to 
do with the reality of the Soviet threat. If you recall, the 
Soviet threat was real. It was worth investing money in defense 
procurement while trying to minimize the occurrence of $900 
toilet seats. The same paradigm, seems to me, would apply now.
    Mr. Kucinich. I appreciate the gentleman's willingness to 
engage in a discussion here. I would like to point out, Mr. 
Chairman, that it wasn't the career intelligence officials who 
clearly claimed that Iraq had WMDs. It was administration 
political officials who sold the war and pushed for it, and the 
reason why I asked the question, Mr. Rivkin--and I didn't bring 
up the name of the President or the Vice President. The reason 
I asked the question is how in the world can you expect the 
American people to willingly see a rollback of their civil 
liberties if the circumstances which have been described, the 
exigent circumstances which have been described to them, turn 
out to have been not true. For example, Iraq did not have 
weapons of mass destruction. Iraq did not have a connection to 
Al Qaeda. Iraq did not plan to attack the United States, and so 
I just--and I could go on, but I won't, the point being that 
there seems to me to need to be some symmetry with respect to 
the integrity of the assertion of the danger and the policies 
that follow that are subsequent to the claims of danger. I'll 
just offer that for your consideration, and I appreciate every 
panelist being here.
    Mr. Chairman, I have a number of bills I'm going to be in 
debate on on the floor, and I appreciate the opportunity to be 
here.
    Mr. Shays. Thank you.
    I'd like all of you to respond to a number of issues, but 
first, I'd like to know where you disagree with each other. So, 
in other words--and by that, I mean, Baroness, you may have 
heard Dr. Lewis say something, Dr. Rivkin say something that 
you would disagree with.
    Dr. Lewis, you may have heard Mr. Parker say something that 
you would see--because I want to just start to get a sense of 
where people are coming from on a variety of issues.
    Mr. Parker, I'll tell you what I disagree with, but I could 
be so dead wrong. You went after my most heartfelt belief that 
terrorists aren't criminals, and I'll tell you my most 
heartfelt belief, and I'm going to think about it because 
you're telling me that Great Britain has already been there and 
done that, but to me, to equate a terrorist as a criminal and 
give them 10 years of legal rights I find absurd, and I think--
I just think we are dead in our tracks. I mean your just even 
mentioning that there's not going to be a court case against 
the individuals in the August 10th until potentially 2008 tells 
you already how I wrestle with this. So I'm just kind of 
illustrating the points, and I am so eager to have a really 
interesting dialog with all of you about this.
    So, Baroness, do you want to start? You need to pull that 
mic a little closer and more in the front of you, too, if you 
don't mind. Thank you. That's it.
    Ms. Falkner. Mr. Chairman, I'm not sure I disagree very 
much, but I was going to say that I possibly slightly disagree 
with you in your--in what you've just said about how you found 
it incomprehensible that there won't be a case until 2007, as I 
said, or early 2008. If you see how long the United States has 
incarcerated people in secret prisons or in Guantanamo Bay 
without having laid charges against them, then, frankly, to be 
open and transparent and arrest people under criminal law and 
apply due process, terrorism law and apply due process, I think 
is the right way to go.
    Mr. Shays. Let me ask you this then, maybe, just so we 
don't get too far off and then find out we don't really 
disagree. I think there has to be due process, and do I make an 
assumption that, if they're not under criminal law there 
wouldn't be due process--is due process and criminal law the 
same? And I ask that out of ignorance, not out of--Mr. Rivkin.
    Mr. Rivkin. Mr. Chairman, I agree with you.
    One of the first sayings you learn in your constitutional 
law course is the question is not whether due process is needed 
but what process is due. What process is due very much depends 
upon the proceedings in issue. You have one level of process in 
a civil case in our judicial system. You have another level of 
process in a criminal case. You have a different level of 
process in the normal courts-martial system. You have a 
different level of due process in a system designed to try 
unlawful combatants, and I don't want to convert this into a 
debate about Guantanamo and Abu Ghraib, and God knows I speak 
about those issues more than I like to, but I would say this.
    It's a little unfair, with all due respect, for our British 
colleagues to criticize us for using a non-law enforcement 
paradigm. We're taking into account the fact that the law 
enforcement paradigm as practiced in Britain and certainly in 
continental Europe is far more forgiving of a government, far 
easier for you to get at the terrorist. There's no question in 
my mind that who I'd want to prosecute would be terrorists. I 
would take the British surveillance regime, the British 
profiling regime, the British legal regime, despite the lack of 
death penalty, over our regime any time, including your point. 
We have an obligation for a speedy trial here. In a speedy 
trial in this country, you can't wait for 2 years before you 
bring somebody to justice. You can't have controllers. You 
cannot arrest people.
    Mr. Shays. You've answered more than I needed to know now, 
but I find your answer very helpful, because I did interrupt 
the Baroness. I just wanted to make sure that I wasn't saying 
there shouldn't be due process.
    Ms. Falkner. Can I give way to Tom Parker for a second?
    Mr. Shays. Absolutely, and then you can come back.
    Mr. Parker. Actually, I think you framed it exactly right. 
It is a philosophical issue, this. I think we're going to have 
a clash of deeply held philosophical issues because for me they 
are criminals. I've spent my entire professional career 
basically trying to prosecute mass murderers of one sort or 
another.
    Mr. Shays. Right.
    Mr. Parker. I've helped investigate Milosevic in the former 
Yugoslavia 4 years for the United Nations. I helped set up the 
Saddam Hussein tribunal in Baghdad, and I was part of the State 
Department's team in Chad, investigating allegations of 
genocide in Darfur. These are crimes on a massive scale, but 
they're crimes, for me. I think of the people who commit them 
as criminals, far more egregious criminals actually than 
terrorists. I don't have a lot of time for terrorists, frankly. 
Most of them are sad and diluted people who are socially 
disconnected from the people they hurt. I think it cheapens 
them to treat them as criminals, and I think we gain legitimacy 
from doing so. So, I mean, for me, this isn't a throw-away 
sentiment. It is a deeply held belief.
    Mr. Shays. Right.
    Mr. Parker. I think it is the core of our effective 
response, and to just respond to David as well, no criticism is 
intended in this. Simply, let me make the observation that this 
is how we do it, and I think it works quite well for us. The 
delay before trial ensures that we have an effective trial 
process and the right evidence is presented in court.
    Mr. Shays. The only implication, though, was I was thinking 
that as--by my suggestion, not criminal, that I wasn't asking 
for due process, and there is a bit of profiling with the Brits 
that we don't do in the United States, correct?
    Mr. Parker. Well, there's a lot of safeguards on profiling. 
Basically, it's a reasonable grounds test. The reasonable 
grounds test and the Police and Criminal Evidence Act requires 
intelligence, direct intelligence, before you profile, so it 
isn't simply that a city police officer says, ``Terrorism's a 
bad thing, and we associate it with Muslims, so we can stop and 
search people.'' It has to be event-specific, and it has to be 
location-specific.
    Mr. Shays. OK. This is what I'm going to ask you to do, and 
this is not a quiz in the sense that I would like to--I'll tell 
you what I want to ask you.
    I want to ask you what you believe our strategy is against 
terrorism, and I'd like you not to change your answer based on 
what someone else said. Tell us first what you think that it 
was and if it changes, and I will tell you what our strategy 
was in the cold war. It was contain, react and mutually assured 
destruction. I mean that was our basic approach. We wanted to 
contain the Soviet threat. We were going to react to whatever 
they did, and if they sought to blow the hell--to blow us off 
the face of the Earth, we would blow them off the face of the 
Earth, and they, being rational people, would choose not to, 
and that was the deterrent.
    What I want you to all do is tell me what you think the 
Western World's strategy is against terrorism. If you think 
it's different in the U.K. versus the United States, tell me 
that, and then my point in asking this question is it seems to 
me this is where we start, and then I want to know how we 
succeed, and when I ask my own constituents what is our 
strategy, no one can tell me, which, in my view, is the huge 
failure of our political system right now. We worry whether 
someone has earned three Purple Hearts in a Presidential 
election or has fulfilled their National Guard service 
requirement instead of educating people about the terrorist 
threat and what we have to do about it, and I'm going to tell 
you what I believe the strategy is.
    Mr. Rollins, are you ready to tell me what you think the 
strategy is?
    Mr. Rollins. Yes, Mr. Chairman.
    If I may, I'd like to focus on--since we're speaking of the 
criminal activity area of the discussion, I'd like to focus on 
one aspect of this, and that's the investigative piece of that 
since we're having----
    Mr. Shays. Is this your strategy on how we deal with the 
terrorist threat?
    Mr. Rollins. I was going to draw a distinction between the 
United States and the United Kingdom.
    Mr. Shays. OK, on the strategy to deal with the terrorist 
threat----
    Mr. Rollins. Yes.
    Mr. Shays [continuing]. Not the methods, the strategy. What 
is the overall strategy to deal with it?
    Mr. Rollins. I think the overall strategy is the United 
States is far more reactive than proactive than our United 
Kingdom brothers and sisters. I think we are far more likely to 
engage and try to thwart a suspected terrorist activity, a 
terrorist planning effort than allow--the United Kingdom would 
allow the suspect criminal activity to run a little bit so we 
could gain further intelligence and further value to see the 
strategic picture; whereas, we're focused more on the tactical 
level.
    Mr. Shays. OK. Mr. Parker.
    Mr. Parker. Mr. Chairman, if I understand your question 
right, you're asking about a grand strategy.
    Mr. Shays. You've got it.
    Mr. Parker. My understanding--and bear in mind I'm not 
appearing here as an expert on American----
    Mr. Shays. Let me do this. I'm going to agree that we don't 
know very much about how you do it, and you don't know very 
much about how we do it, but you're going to express opinions 
about both, maybe expose your ignorance, but let's not keep 
apologizing to the other either. So this is just a discussion, 
and we don't have C-SPAN but we're going to learn a lot, and 
it's going to be very helpful to us, OK?
    Mr. Parker. My understanding is it's essentially a doctrine 
of preemption. It's a doctrine of preemption that is built 
around a coordination of a variety of responses from law 
enforcement to military action. The United States is in a 
position to project force overseas that no other Western 
country is in the way that it does, and that allows us to 
pursue a grand strategy of democratizing the Middle East, for 
example, that, you know, the United Kingdom clearly on its own 
or the European Union on its own could not do. So I think 
there's a divergence in what grand strategies both sides of the 
Atlantic can pursue, but broadly speaking, the idea of 
preemption to disrupt terrorism before it happens is a shared 
doctrine at the heart of both approaches.
    There's clearly more emphasis in the United States on the 
use of the military than in the U.K. It's explicit in the Home 
Office. The counterterrorism document that military force 
should be used purely as a last resort when all other avenues 
have been exhausted, I don't think that's quite the same 
conceptualization here, but I'm willing to be corrected on 
that.
    Mr. Shays. OK. Baroness.
    Ms. Falkner. Mr. Chairman, I speak as somebody looking at 
your strategy from a distance, and there are two or three broad 
areas that stand out for us when we look at it from Europe, 
from a European perspective.
    We said from the outset that we thought calling it a 
``war'' and seeing it as a war was a mistake after the events 
of 9/11. I think Representative Kucinich--I'm not sure how----
    Mr. Shays. Kucinich. Right. You've got it.
    Ms. Falkner [continuing]. Has it right in his opening 
comments. Once you imply there was a war without an obvious 
enemy and open-ended, then it was inevitable that it would 
mount in multilateralism, and we feel very strongly in Europe 
that there is a move away from multilateralism in other areas 
as well.
    Then we see extremely wide executive powers in operation 
often employed after the fact. We see an abandonment of the use 
of judicial instruments in favor of incarceration, preventative 
detention. We see this policy of what we call, rather politely, 
``extraordinary rendition''; in other words, the kidnapping of 
suspects, as one of the tools that is used as part of the grand 
strategy, and I think Mr. Rollins kind of got it right when he 
said that we tend to see it in a longer timeframe, and 
therefore tend to not overreact, with all due respect. Here it 
seems to be that the strategy evolves as each incident or near 
incident comes to light, and it therefore becomes just 
responding to events.
    And I would disagree a little bit with Mr. Rivkin when he 
says that he doesn't see that foreign policy plays any role in 
it at all, that there is a sentiment that if you employ the 
level of double standards that you do eventually that you will 
end up with no standards at all, and we see that as a dangerous 
development.
    Mr. Shays. OK. Thank you. Thank you very much.
    Dr. Lewis.
    Dr. Lewis. Mr. Chairman, let me beg your indulgence by 
adding one footnote that I will be brief on and will bring back 
to your question----
    Mr. Shays. Sure.
    Dr. Lewis [continuing]. But we've heard an assumption that 
Iraq has something to do with the conflict we're in, and for me 
that's very strange because when I entered the Foreign Service 
in 1984 we were studying how to deal with Islamic terrorism. We 
were looking at the bombings of embassies.
    Mr. Shays. When was that?
    Dr. Lewis. The 1981 bombing of Gulf embassies, in 1983, 
Hezbollah, the murder of the Marines in Beirut----
    Mr. Shays. OK.
    Dr. Lewis. A series of attacks in the 1990's, Khobar 
Towers, the Cole, the World Trade Center.
    Mr. Shays. I've got you. I know. I was really wanting to 
know--I want to know when you went into the Foreign Service so 
then I could----
    Dr. Lewis. Oh, 1984. So it goes back a long way. So I don't 
see this as something that started with Iraq or that Iraq 
contributes to it.
    Mr. Shays. Right.
    Dr. Lewis. The people who are trying to kill us would be 
trying to kill us even if we weren't in Iraq.
    The second thing to note is we have sort of a strategy. 
It's a little bit inchoate, and I think there's two parts to 
it. The first part you've heard about. It's a reactive or 
defensive strategy. It involves intelligence and law 
enforcement primarily, not the military, I'd say, and involves 
disrupting and destroying terrorist organizations, capturing 
terrorists, imprisoning them and otherwise making it difficult 
for them to operate. That's important. We've had some 
successes.
    The second part, however, is an ideological struggle, and 
we've gotten off to a very slow start, and that is this debate. 
There's all these assumptions about the United States and its 
foreign policy that we have not adequately challenged, that we 
have not adequately defended, and we need to, as we did in the 
cold war in your example, eventually figure out a way to start 
pointing out, look, the other guy's system doesn't work and if 
you go down that path you will be unhappy. We need to win the 
ideological struggle, and that's where we're having trouble.
    Now I'd point out--I apologize to my European colleagues, 
but----
    Mr. Shays. No, we're not doing that anymore.
    Dr. Lewis. Oh, good.
    Mr. Shays. Yes, no more apologies.
    Dr. Lewis. I'm apologizing because I'm going to say 
something different, which is that Europe was confused in the 
cold war, and I think they're a little confused now. There are 
things you can criticize about what the United States has done. 
I feel those criticisms deeply, as I'm sure many do, but on the 
whole there's a good side, and there's the other side, and we 
need to figure out which is which, and I don't have any trouble 
doing that.
    Mr. Shays. OK. Mr. Rivkin.
    Mr. Rivkin. Thank you, Mr. Chairman.
    Just a few basic propositions, not to sound pedantic, but 
this position comes from territory of----
    Mr. Shays. Now, you can apologize for being pedantic.
    Mr. Rivkin. I do apologize for something. Being brought up 
by the Jesuits, I have a lot of guilt in me.
    It seems to me that unless you understand correctly what is 
the phenomenon, what is the strategic framework of what we're 
fighting, if we're going to win it would be by accident, and I 
think it's worth spending time in engaging in discussions about 
why this is war, and with all due respect, there's not much 
doubt that this is war, and since we like to talk about 
international law there are objective standards that go to the 
question of intensity of violence, the nature of targets being 
attacked, and reasonable people can differ about many things.
    There was a big debate, as a matter of fact, which my 
British friends may recall, about Norman Island. Britain argued 
quite precipitously at the time that the level of 
unpleasantness on Norman Island was not such as to cross the 
threshold of armed conflict, and you have certain folks that 
take a different view, but reasonable people can differ about 
it. But to me, when you have people projecting power, state or 
nonstate actors attacking the seat of government of this 
country, attacking our financial center and the killing of 
3,000 Americans, if this is not war, then I don't know what 
``war'' is. It is a war.
    Now, people like to point out that how can it be war since 
we're not dealing with state actors. Well, with all due 
respect, there's a little bit of historical amnesia here, 
because if you look at the world's history and European 
history, the notion that you can have war between a nonstate 
actor and a state is extremely old. I mean I wanted to go back 
to antiquities, look up The Dawn of Modern Age of the state 
system. In Italian city states, it was quite common to have 
private actors, condottieri, an earlier version of unlawful 
combatants, who fought not only on behalf of city states but on 
their own account. There's nothing new about that, and the 
rules recognize that.
    So we are in a state of war. It is a long conflict, and the 
only thing I wanted to add is what is this connection--because 
it's very important, and I think you alluded to it earlier--
what is the connection between the counterterrorism fight here 
and the fight in the Middle East? And let's leave Iraq because 
I don't want to be any more controversial than I have to be, 
but to me there is a clear connection between being on the 
offensive, and it's not just a simplistic note to people to 
basically have a look. If we go to a place somewhere in the 
Middle East and we kill the terrorists there, they don't--
they're not going to come here, the ones we kill or arrest. 
It's true, but it's more than that.
    To me, the reason people in Britain and in this country--
radicalized, alienated, sick, criminals, whatever you call 
them--attack us and Brits and people in Madrid and Bali is for 
two reasons. They have a whole list of grievances, and I agree 
with my colleague Dr. Lewis the list of grievances is so 
endless that there's no way we can possibly cure them. It 
certainly includes Afghanistan. It certainly includes Iraq. It 
certainly includes Danish cartoons, and I'm sure by now it 
includes popes, the pope of a 14th century theologian/emperor, 
but there's not a very powerful factor, and that is a 
perception of weakness, to call it one or more chummy 
expressions by Osama bin Laden. It is that first combination of 
grievances and the perception of weakness that adds as the fuel 
for both radicalizing and inducing to action those who have 
been radicalized. To me, it is absolutely axiomatic that any 
ability by the United States and our partners to do well in any 
of the overseas spheres of operation, be it Afghanistan, be it 
Iraq, Israel----
    Mr. Shays. You have so many parentheticals that I don't 
know when to interrupt you here.
    Mr. Rivkin. Sorry. I'm almost done.
    To me, the connection between that battle and the 
counterterrorism fight is we have to be strong. We have to 
demonstrate we can take on the terrorists where they dwell and 
take them down, and while it may increase the sense of 
grievance and alienation, it also tempers the powerful 
perception that we're weak, and therefore, in the long run, is 
going to produce a great weakening of impetus with terrorism.
    Mr. Shays. You raise an interesting question, and I know 
you want to speak, Mr. Parker, and I'm going to go to you, but 
I am constantly being lectured in a very good way by my friends 
in the Middle East who say you don't understand the Middle East 
so that when I wanted to apply my Western mind to say get out 
of Lebanon, I had Israelis say, if we get out of Lebanon, they 
will view it as a victory without negotiations, and that's the 
way exactly I interpret Arafat's basic Intifada. It was, you 
know, we just can wear them down, and it sent the exact 
opposite message that I would have wanted to send.
    So I just raise that point in the question as to draw an 
analogy as to how you dealt with Catholics and Protestants in 
Northern Ireland, but you wanted to make a point. Then I'm 
going to tell you what I think the strategy is.
    Mr. Parker. I thought David raised an important point, but 
it was worth developing a little further.
    In Northern Ireland, there was a big debate about whether 
the insurgency was a war, and David referred to some folks who 
wanted to call it a ``war.'' Well, let's put a label on it. The 
Provisional IRA wanted to call it a ``war,'' and they wanted to 
call it a ``war'' because it gave them legitimacy.
    The problem is the terrorists want to be considered a state 
actor. They want to be considered to act on the same level as 
governments around the world, and by calling it a ``war,'' you 
confirm legitimacy of them. It is extraordinary that people 
here feel that this is somehow pushing the terrorists into a 
hole. This is what they want. They want to be put on the same 
level.
    One of the big mistakes we made in Northern Ireland was 
being confused about what it was at the beginning and treating 
it as operations short of war, to borrow an Israeli euphemism. 
We gave people special category status, and we backed off that 
because it was a horrendous mistake.
    Mr. Shays. That's a very interesting point for me to--and 
we can respond to that.
    My view is the cold war strategy was contain, react and 
mutually assure destruction, and the war against, as I call it, 
Islamists--call it a confrontation, whatever, but I call the 
war against Islamists ``terrorism''--is detect, prevent, 
preempt, and maybe act unilaterally, but if I understand that 
it's detect, it says, well then what does that make me want to 
do. I want to break into the cell. I don't want to have to 
respond to the consequence of a cell having acted.
    Now, what I find intriguing about in Great Britain is you 
have a better way of resurrecting who did it, in my judgment, 
in urban areas, you have cameras in different places, and 
you're able to really track this person here and where they 
were here and where they came here, and even if they blow 
themselves to smithereens you can kind of identify, well, what 
part of Great Britain did they live in or London did they live 
in, and who was their family, and you can get in. And so the 
good news I see is that, even though you didn't detect it and 
prevent it, you have a way to reconstruct it and prevent that 
cell from doing it again. So that's one plus that I see.
    But respond to my sense that our strategy is detect, 
prevent, preempt--we've all touched on some of that--and maybe 
act unilaterally. Tell me where you would disagree with that.
    Mr. Parker. Well, the British strategy, the core strategy, 
is also defined in very similar terms. There are four pillars, 
according to that--there's a strategy document known as CONTEST 
that was published in 2003, and it talks about four areas--
prevention, pursuit, protection, and preparedness--prevention 
being social inclusion.
    Mr. Shays. Prevention. Pursuit. What is the other one?
    Mr. Parker. Prevention, pursuit, protection, and 
preparedness.
    Mr. Shays. Now--so what gets under the ``detect'' part?
    Mr. Parker. Under the ``protect'' would be----
    Mr. Shays. I mean the ``detect.''
    Mr. Parker. On the ``prevent?''
    Mr. Shays. ``Detect.'' In other words, if you do want to 
break into cells, what are those four that gives you that 
guidance to break into a cell?
    Mr. Parker. Well, actually, prevent, but all have aspects 
that help you. You know, it's a continuum. There's not a single 
event. Each post-incident investigation will probably produce 
leads for future investigations, not only from the point of 
view of the contacts of the members of the cell, their 
movements, the places they've traveled overseas, their finances 
that you've tracked, but also in terms of the MO that's used, 
the type of explosives they've used. There's loads of clues, 
loads of leads to pursue from an intelligence perspective, but 
then also, as I talked about a little earlier, social inclusion 
efforts, having local community offices working with the 
presidents of the mosques, with local imams. Every level of our 
response is designed to engage different aspects of the threat.
    Mr. Shays. Could you respond to where there's a weakness or 
a strength in what I believe is our U.S. policy, which is to 
detect, prevent, preempt, and maybe act unilaterally? Is there 
any part of that detect, prevent, preempt, and act unilaterally 
if we have to?
    Mr. Parker. I mean act unilaterally comes with a price.
    Mr. Shays. It does, but maybe not preempt--acting 
unilaterally. We had testimony in this subcommittee from 
someone from a major medical magazine, and he said his biggest 
fear was that a small group of dedicated scientists could 
create an altered biological agent that could wipe out humanity 
as we know it. If that were the case and they were doing 
whatever they were doing, wherever they were doing it, do you 
think that any leader would wait a moment not to act, and would 
they get permission from the country that--would they get 
permission in the country that they were in to act if they 
literally believed that biological agent could wipe out 
humanity as we know it? And that may seem like an extreme, but 
an altered biological agent could possibly do that. So I look 
at--I'm looking at your strategy, and I'm trying--well, let me 
just ask you this.
    Well, maybe you want to respond, and then I'd like to ask 
Mr. Lewis and Mr. Rivkin and you, Mr. Rollins, to jump in.
    Mr. Parker. The bottom line clearly is there's always a 
reasonableness defense. You know, in extraordinary situations 
you could always advance the fact that it was a necessity. You 
had to do something extraordinary because the threat was so 
great. So, I mean that exists in British law just as it exists 
in U.S. law.
    So, the ticking bomb thing, actually, I would argue is a 
little bit of a red herring. The problem with unilateralism--
let me give you----
    Mr. Shays. Let me ask you. Why do you say that?
    Mr. Parker. Well, it doesn't happen very often, and 
terrorist actions are fairly commonplace, so I'd focus on the 
commonplace, not the extraordinary and unlikely, to be honest, 
and I'm not for a moment suggesting that WMD won't be used in a 
terrorist attack. I think that's quite possible, but it hasn't 
happened yet, and you need to focus on what we're really facing 
primarily, which is small groups of cells coming out----
    Mr. Shays. When I was with your new Scotland Yard this year 
they told me that they were shocked by what happened in July of 
last year. They told me they were shocked and very surprised. 
They did not anticipate it. They didn't know how it had broken 
into cells, and that surprised me that they said it, but they 
said that.
    Mr. Parker. Well----
    Ms. Falkner. I think, Mr. Chairman--I mean we certainly 
know that two of the bombers of July 7th of last year had been 
in the peripheral vision of the Security Services. Security 
Services had to take a judgment over another investigation that 
they weren't really relevant or--and had stopped surveillance 
of them. So these people weren't absolutely off the radar, I 
would argue, but also a couple of things here.
    Yes. I mean I think everybody in Britain was shocked, 
dismayed, surprised. Attacks on mass transit systems evoke a 
particular kind of horror because they affect so many of us. It 
could be me. It could be you. We all know that feeling. I don't 
think the Security Services and Scotland Yard has said this to 
you. I'm surprised because certainly the measures that Security 
Services were taking in the leadup--not in the leadup--over 
several years in the years since 9/11 where all designed 
strategies were developed in order to forestall a major 
terrorist incident. We had an incident at Heathrow Airport 
sometime before then where measures were put into place, so 
there certainly has been a strategy to prevent.
    I think where I would argue that perhaps our strategy of 
prevention is different from yours is that we, I think, walk 
closer to the abyss than you do a little bit.
    Mr. Shays. Closer to the what?
    Ms. Falkner. To the abyss than you do in the sense that 
where human intelligence, where infiltration, where evidence is 
coming to light that something is being plotted, we tend to 
allow it to continue as far down the line as possible in order 
to be able to prosecute and bring to trial. It seems to me, 
here, that the slightest whiff of any wrongdoing, implied 
wrongdoing, suspected wrongdoing results in people being 
incarcerated, so it's a different and perhaps more dangerous 
approach.
    If I could go back briefly, earlier on, you said that we 
should talk about where we perhaps disagreed with each other's 
comments. I think that----
    Mr. Shays. Before we do, I want to do the strategy, and 
then--so could I come back, and----
    Ms. Falkner. Can I just come to Mr. Rivkin because he's put 
a lot of very big things on the table, and I would ask him that 
since he--you know, and it's--what I find quite extraordinary 
about the U.S. situation is that somehow assertions become 
facts, so if we say something often enough, it's got to become 
true.
    Mr. Shays. Like what?
    Ms. Falkner. Well, like the fact of the war. So I'd like to 
go back to him and ask him who the war is against. Is it 
against all Muslims? Is it against all 1.5 billion of us?
    Mr. Shays. No. No. That would be silly.
    Ms. Falkner. You know----
    Mr. Shays. No. That would be silly, and I can answer that 
question.
    Ms. Falkner. Yes.
    Mr. Shays. The 9/11 Commission, comprised of Republicans 
and Democrats, liberals and conservatives, 10 men and women, 
they all said the following: They said we are not confronting 
terrorism as if it's some ethereal being; we're confronting 
Islamist terrorists, and I make an assumption we don't find 
them in Iceland. It is, I thought, frankly, and it says to me 
Islamist terrorists are not just Al Qaeda. It's the Jihad, the 
Brotherhood, Hamas, Hezbollah, and a whole host of others. 
That's what it says to me.
    Ms. Falkner. And people we do not know of and people who 
may never become terrorists, so it's----
    Mr. Shays. No. Islamist terrorists, I'm missing your point. 
What do you mean people that may never become terrorists? We're 
saying these are folks that have basically taken their faith to 
an extraordinary extreme and basically found comfort in a very 
large Islamic world that is not willing to condemn it.
    Ms. Falkner. I would----
    Mr. Shays. Let me let you speak. Let me go to Mr. Rollins, 
and then I'll go to Mr. Rivkin.
    Mr. Rivkin. If I may just say----
    Mr. Shays. No. No, not yet. Let me just----
    Mr. Rivkin. Sorry.
    Mr. Shays. Were you going to speak on this issue? I want to 
first let the Baroness make her point then.
    Mr. Rollins. I was going to speak to----
    Mr. Shays. First, let the Baroness go and then Mr. Rollins.
    Ms. Falkner. Mr. Chairman, I refute the point that the 
Islamic world doesn't condemn it. We condemn it until we're 
blue in the face. We've been condemning it from the outset, 
long before 9/11, because it was mainly Islamic countries that 
suffered the brunt of terrorism, bombs going off in Lebanon, 
bombs going off in Egypt, in Pakistan on a regular basis. The 
Muslims have been killed by more acts of terrorism, I would 
argue, than the 3,000 here in 9/11.
    But to come back to what you said, I would argue that this 
is not the faith. It is an ideology. It is an ideology that is 
explicit, that calls for foreign powers to leave the countries, 
particularly the countries of the holy places, and so on. There 
is no secrecy about this. We know what Al Qaeda demands. It 
comes up and calls for those demands on a regular basis. It 
reiterates them on a regular basis. The fact that it becomes so 
extremist it's wacky doesn't mean that there isn't an 
ideological underpinning beneath it, so it's--you know, you 
cannot really have a war against an ideology. It's very hard to 
do.
    Mr. Shays. That's an interesting concept. Did you have 
something else you wanted to say before I go to Mr. Rollins? I 
mean you made a number of points. OK. Mr. Rollins.
    Mr. Rollins. To that point, Mr. Chairman, I'd like to make 
two observations. The new White House counterterrorism strategy 
that was just released 2 weeks ago for the first time, from my 
understanding, attempts to address this ideological piece that 
we haven't addressed since 9/11, so I would offer that.
    The second, in returning to your distinguishing between the 
United States, the United Kingdom, the four pillars of 
attempting to address counterterrorism, I would offer that 5 
years post-9/11 we are still--the United States is still 
working the detection piece of that. We are still too reliant 
on technical, technology, and far less reliant on human 
intelligence, far less reliant on outreach into the 
communities, far less reliant, and until we get that piece 
addressed, I believe we're not going to be able to successfully 
speak to the issue you brought up earlier, the example about a 
group of scientists trying to unleash a mankind ending type 
virus.
    Mr. Shays. OK.
    Mr. Rollins. Generally, technical means are not going to 
pick that up. It's going to be somebody in the community or 
some human operator.
    Mr. Shays. And, Mr. Rollins--the rest of you, you're going 
to just go on in a second--what I wrestle with as a policymaker 
and as someone who has spent--has chaired this subcommittee 
since 1998 and has focused on this well before September 11th 
is that I want our strategy to be complete enough to have us do 
everything we need to do to succeed whether we call it war or 
not, and I do agree that part of our strategy can't be using 
military forces or criminal forces. It's got to be diplomacy. 
It's got to be humanitarian. It's got to be economic. It's got 
to be all of those. So, you know, the strategy that I've 
outlined may be weak there in covering that, but what I am 
stunned by as I think about it, this is a debate no one's 
having in the United States, and to my knowledge--Mr. Rivkin 
and Dr. Lewis, that you could maybe speak to if you disagree--
but I don't hear this on the talk shows. I don't hear this 
debated on the House and Senate floor. I don't hear the 
administration talking about what our strategy is to combat 
what we think is Islamist terrorism.
    I don't want to get you off the subject you wanted to say, 
but maybe you could comment on that as well, Mr. Rivkin.
    Dr. Lewis. Well, let me--oh, sorry.
    Mr. Rivkin. You can go first.
    Dr. Lewis. Let me try two points, and then I'll be quick.
    I do think people are beginning to realize that you do see 
that this public diplomacy effort is not very good, but there 
is a conception now. In some of the conferences you saw on the 
fifth anniversary of September 11th, you did have discussion 
of,you know, there's this notion of somehow of a return to the 
Caliphate and use of Sharia law is a good thing and that we 
need to start fighting that. So I think you're starting to see 
the debate, and in some ways your parallel with the cold war is 
very interesting. I mean, in the 1940's, you had a lot of 
Americans who, you know, had some sympathy with the Soviet 
Union initially, certainly in the 1930's, and by the 1960's or 
1970's no one had any sympathy left. Hopefully, it won't take 
us that long, but I do think you're beginning to see the 
ideological conflict emerge, and it's something we have to do.
    Related to that is the issue of unilateralism. I would take 
exception with you on this point because I don't think we're 
acting unilaterally. Let me give you a classic example.
    Mr. Shays. But should we be allowed to in our strategy is 
the question.
    Dr. Lewis. I think we should be allowed to, but we've 
chosen in most cases not to act unilaterally. We've chosen----
    Mr. Shays. So you're saying that our strategy is not that, 
and I think it's a part of it.
    Dr. Lewis. I think a part of our strategy that is not 
reflected in your four points is that we have worked very hard 
to develop strong cooperative relationships with security 
services around the world. One of the best examples is France. 
Another example would be Italy, although when the Italians 
cooperated, their judicial system threw their chief of 
intelligence in jail.
    The perception is that we're acting unilaterally. It's a 
false perception. Whether we can sustain this level of 
cooperation is another matter given the hostility that the 
United States now engenders, but we are not acting unilaterally 
and people who think that just need to reassess how we work in 
other countries.
    Mr. Shays. You know, I thought of ``unilateral'' in the 
sense that we may have to act unilaterally if no one else is 
willing to take action. I did not mean it in the sense that we 
are not cooperating with, and--but the mere fact that comes up 
tells me that what I describe as our strategy still isn't--it's 
not a complete strategy. I mean I got this strategy from all 
our hearings, the many of our hearings that we had even before 
September 11th, and yet it's got its weaknesses.
    Mr. Rivkin, what do you want to say?
    Mr. Rivkin. Yes. Mr. Chairman, I agree that we need a 
comprehensive strategy. I also agree that not just this 
administration--maybe you're not making that point--but any 
administration is not particularly good, or any government, in 
articulating in a crisp, strategic, compelling manner what the 
strategy is. God knows we issue reports every couple of years, 
and you know, they read as ex poste facto the rationalization 
of what's going on, but that's an endemic problem. Academicians 
and scholars write best strategy usually on a retrospective 
basis, but one thing that I don't think we get enough credit 
for is the notion that the way to carry out the ideological 
struggle and the way to do it and what you have to do, whether 
you call it a ``war'' or a ``conflict,'' is to engage the 
strong beliefs held by the enemy.
    The strong beliefs held by the enemy is that the 
alternative to Western democratic regimes--and let's strip away 
opposition to specific policies. They really do appear--if you 
look at the Al Qaeda documents and documents on various other 
radical Web sites, they really do--and look at the statements 
by Ahmadinejad. He really does believe, seriously I think, 
sincerely, that democracy is a bad way of organizing society, 
that it's not a good way of organizing a society that promotes 
virtue, that enables people to escape the temptation of sin, 
etc. Actually, that view is not unique. There are many 
theologians in centuries prior to that who also did not like 
democracy for that reason. The best thing we can--and the enemy 
also points out that's the only alternative we have helped 
impose on theories they made sound on the Middle East efforts 
and regimes. That's why I sort of shudder, frankly, when I hear 
people talking about the pursuit for democracy in the Middle 
East as my epic quest as decoupled from this war.
    The best thing we can do to demonstrate that there's an 
alternative way of organizing good society that delivers the 
benefits to its citizens and allows people to practice their 
Islamic faith is to have a democracy, a democracy where 
Christians, Jews and Muslims all have similar and political 
rights, which is not the case under Sharia and certainly not 
the case under Caliphate where Christians and Jews were at best 
well-tolerated minorities with zero political power. You have 
to try to come up with a way of demonstrating that there's an 
alternative, and frankly, Mr. Chairman, I think that the bad 
guys understand it far better than the good guys, and one of 
the reasons it's so hard in Iraq is because they know what the 
stakes are far transcending that country. If there's ever even 
an imperfect democratic regime where Shiites, Kurds, Sunnis, 
Jews, Christians, and Syrians, etc., are actually cooperating 
and sharing power and where Islamic law is important but not 
the dominant source of authority, that women have political 
power instead of being treated as second class citizens and 
living under a general apartheid, that would blow sky high all 
the ideological pretense, all the ideological hubris that these 
guys espouse.
    Mr. Shays. The whole reason why I was getting into the 
whole idea of strategy was that I thought that would be a nice 
mechanism for us to then get into what guides Great Britain and 
what guides the United States, and I am finding myself 
intrigued by the fact that--do you think in Great Britain there 
is a general recognition of what the strategy is and, two, do 
you think there's an agreement, because I conclude in the 
United States there is no understanding of what the strategy is 
and no sense of agreement and no dialog, and we had that dialog 
confronting the Communist threat in the late 1940's, but we 
didn't really start to nail it down until the 1950's, but at 
least we had some dialog.
    So, Baroness, I'm asking do you believe--and Mr. Parker--do 
you believe that in Great Britain you all are pretty, pretty 
certain about, as a people, what your strategy is and how 
you're going to deal with the threat, however you describe the 
threat?
    Ms. Falkner. Mr. Chairman, in terms of our own strategy in 
the United Kingdom, we have the strategy to deal with the 
counterterrorism strategy, as Tom has illustrated, and I think 
that is fairly open, transparent, and there is quite a lot of 
trust in the security services in the U.K.----
    Mr. Shays. Right.
    Ms. Falkner [continuing]. Still. So that is, I think, if 
not understood, it's certainly understood by those who are 
interested in understanding it.
    Mr. Shays. Would you in Great Britain have done what the 9/
11 Commission did and say that----
    Ms. Falkner. No. Alas, I have called publicly many, many 
times for us to have had a public inquiry after 7/7. We didn't 
do that. We didn't have a 9/11 Commission come----
    Mr. Shays. No. No. No. You didn't hear my question, though. 
You didn't hear my question the way I meant it.
    Would you in Great Britain agree that the threat is 
Islamist terrorism like our 9/11 Commission did? They didn't 
say ``al Qaeda.'' They didn't say anything other than--and they 
didn't say ``terrorism.'' They said Islamist terrorism, 
terrorists.
    Ms. Falkner. I, myself, am not wary of using the word 
``Islamic terrorism.'' I use it myself. I don't think there's a 
great deal of contemplation of that particularly. We're not--
the word I prefer to use and I think is more widely used is 
``international terrorism'' rather than to put--to align it 
with a religion, and I will tell you why aligning it with 
religion is a bad idea, and it is partly a bad idea because it 
gives the impression--whether you're right or wrong, it gives 
the impression that you're lumping together all believers in 
that religion into this view that it is from their faith that 
terrorism derives, and I've already said to you a few minutes 
ago what my view on that is, but--so, if you describe it as 
international terrorism, then you can--it's much more easily 
aggregated as an ideology.
    Coming back to your question about whether in Britain there 
is consensus, I think in Britain there is consensus that 
whatever strategy we have has to be reflected in the conduct of 
our foreign policy, and there has been a disjuncture between 
the conduct of our foreign policy and whatever policy we might 
have.
    As a consequence of the government, particularly the Prime 
Minister, on the 1-day telling us that he knows that Islam is a 
religion of peace and he has complete confidence that there is 
no such thing as Islamic terrorism, the following day he will 
say something completely to the contrary. So there is confusion 
in the public mind about the conduct of foreign policy and 
where the government draws--Mr. Blair said, to me, that he 
didn't think there was a link between foreign policy and the 
bombs, and then 6 weeks later in a Muslim gathering he said 
there probably was. So it is very--you get so many conflicting 
signals.
    Overall, there is a consensus that foreign policy has to 
be--is an essential part of that strategy and has to reflect a 
national consensus of where we ought to go and that it's not 
currently doing so, which is why I think you find that Mr. 
Blair is opting for early retirement.
    Mr. Shays. OK. Well, I'm going to just throw something on 
the table, and then I would like to hear any comments where you 
may want to move this discussion, any of you that you think are 
some big points that we need to move on to. But I have seen 
basically 20 years of what I call ``Islamist terrorism,'' and 
I've seen it directed primarily at the West and primarily at 
the United States, and I have seen no reaction to it, so I 
sometimes bristle with the thought that somehow we are making 
it worse when I just see it continue to grow and grow and grow 
and grow. I want to someday have a conversation with Mr. 
Kissinger or get my staff to do some research, but I have this 
memory of 30 years ago Kissinger saying, you know, the conflict 
is not going to be against the Communists and Soviet Union and 
the United States, but it's going to be a confrontation with 
the Islamic world, and I just may have totally lost it but I 
have this memory that's kind of what he said, and when I meet 
with folks in Saudi Arabia and others in the Middle East, I 
feel like they have one foot in the modern age and one foot in 
the dark ages, and I feel like they have been given a pass. 
Saudi Arabians can come to the United States and live just as 
we choose to, and we go there and we have to conform to 
something that is so confining that it just--it makes me just 
wonder what we do about it. I look at what we see happen in 
former Yugoslavia, and we ask the Saudis to help, and what they 
do is they build mosques promoting Wahhabism, and I then 
trigger this to--I've been to Iraq 14 times, and I was talking 
to a woman who was in the only shelter for battered women in 
all of Iraq, and she said her husband had become a terrorist, 
and she described what he did, and then she said he's a 
Wahhabi, and it was--you know, that was--it's a very aggressive 
form of the Muslim faith, and I don't know how we confront this 
threat if we--I feel like we're being asked to close our eyes 
because it's religion, and therefore, we don't want to get the 
religious world unhappy with us. That's kind of what I feel 
you're saying to us--to me, Baroness. I feel like first we've 
just got to say the emperor has no clothes and then think, my 
God, what does that mean, but that's kind of where I'm coming 
from.
    Mr. Parker, I'd like you to respond to what I just said.
    Ms. Falkner. Mr. Chairman, could I come back just briefly?
    Mr. Shays. Yes.
    Ms. Falkner. Mr. Chairman, I myself have lived in Saudi 
Arabia, and I have lived in other parts of the Middle East, 
including Lebanon, and by way of background my mother was 
educated at the American University of Beirut, so----
    Mr. Shays. May I ask you are you a practicing Muslim or are 
you----
    Ms. Falkner. I will come to that.
    Mr. Shays. OK.
    Ms. Falkner. You see me before you. I'd like to know what 
you think I am.
    Mr. Shays. I don't know.
    Ms. Falkner. Yes.
    Mr. Shays. I didn't----
    Ms. Falkner. Exactly. So I think, you know, I know exactly 
what you talk about in terms of Saudi Arabia. I did not choose 
to remain there for the very reasons----
    Mr. Shays. Right.
    Ms. Falkner [continuing]. That you talk about, and I think 
there is a real problem of modernity in the wide Muslim world.
    I don't want to sound morally relativist. In fact, I have 
quite a lot of contempt for moral relativism, so I don't want 
to contextualize and make excuses for things. I think--let me 
put it thus, that there are conservative traits, reactionary--I 
would say reactionary traits in all religions, there's 
fundamentalism across religions, and I think Wahhabism is a 
particularly unfortunate expression of Islam. I certainly don't 
come from that perspective. I come from Pakistan where we have 
mainly Sunnis and Shiites, but you have the spread of religious 
practice and adherence across the country, you know, 150 
million people. I come from, as I've just indicated to you, a 
rather middle class and educated and liberal--and that's not a 
swear word where I come from--a liberal background, and 
therefore, I tend to think that my faith and my conviction is a 
matter for me and a matter between me and God, and I don't wear 
it on my sleeve as many people do.
    So, leaving that aside, coming----
    Mr. Shays. Let me just tell you. The relevance of your 
faith, to me, is not how you practice it but your understanding 
of those who do, and therefore, when you speak, if you spoke as 
a practicing Muslim that would mean something different to me 
than if you spoke as a practicing Christian. It's not--it's in 
terms of your knowledge of the faith. That's----
    Ms. Falkner. I'm not a theological scholar that I 
understand faith well. I grew up in it. I didn't grow up in the 
West. I grew up in the faith----
    Mr. Shays. OK.
    Ms. Falkner [continuing]. And as I've said, I've lived in 
the Middle East, and just to speak to something you said 
earlier on that, you see when you go and speak to these people 
and you've been experiencing Islamic terrorism for, you said, a 
very long time, indeed, and you find no reaction to it, I 
wonder what you mean by that.
    Mr. Shays. I can be so plain what I mean.
    I have watched the media. This has been my study. There is 
no outrage that I see by the people that matter, and with all 
due respect, you could be outraged by it but you don't really 
matter. I want the leaders, the clerics, the people who can 
make a difference. They are totally and completely silent. I 
have as much conviction about that as anything I have, and 
whether you get outraged by it is, to me, not all that 
important. I want to know what the people who can change it in 
their own faith do. That's the statement.
    Ms. Falkner. Mr. Chairman, the only thing I will say--and 
of course I respect what you're saying. The only thing I will 
say is that the people who do express that outrage are often 
people who say something that isn't what--newsworthy. I'll give 
you an example.
    Shaikh Zaki Badawi, who was the head of the Muslim College 
in Britain--he was a knight. He was awarded knighthood except 
that it wasn't applicable because he was Egyptian as a citizen 
and so one. He was one of the most eminent Muslim theologians 
in Europe, not just in Britain. He recently passed away.
    Eminent scholar. He was denied entry to the United States 
only a few months ago when he was wishing to come and give a 
major lecture at I think it was New York University because he 
was mistakenly on a U.S. watch list. So the plane was landed 
inside Bangor, and he was sent----
    Mr. Shays. I really don't know how that relates.
    Ms. Falkner. But those people don't make it into the media. 
People who are outraged, who are important----
    Mr. Shays. You are making my point, and this is a small 
point, but you are making my point. The people who need to say 
it are not saying it and--but you raised--there are a lot of 
points here, and we could probably go on for days, and I don't 
want to do that. I would like one of the panelists here to tell 
me where we need to go if, failing that--I would like my 
professional staff to just make sure that we cover a few 
questions that we need to ask. Should I go there first and then 
add----
    Mr. Rivkin. Can I make one brief point, Mr. Chairman?
    Put it this way. I am in full accord with you. Reasonable 
people can disagree about the precise parameters balanced 
between ideology and other forms of motivation. But unless we 
understand that we are not--and I think we are talking about 
unless we understand that this is not a series of random acts, 
not a series of random acts by random people for random causes 
or diverse causes, that there is some unifying factor here----
    With all due respect, it is not that it is international. 
There may be unifying factors, but the important factor here is 
there are people, unfortunately, who engage in horrific 
violence motivated by religion as a form of ideology. We have 
dealt with people who are engaged in horrific violence 
motivated by national socialism, by communism. We did not have 
any qualms talking about it, at least not as much about 
religion. But one thing----
    And there is such a thing as demonizing too much, and we 
have to be careful about it, but there is a problem of not 
acknowledging enough. I actually think that our record, not 
just this country's records but British records, has been very 
good about not overgeneralizing and demonizing it.
    Look at the experience in World War I or World War II, at 
the cartoons, at the political discourse about the Germans, the 
Japanese, nothing comparable to that, exceptional degree of 
discretion and carefulness on the part of Blair and the 
President and all the other leaders.
    So it is very difficult for me to imagine we are painting 
with too broad of a brush, but we have to paint--Mr. Chairman, 
I think you have to agree with that--with some kind of a brush. 
Because if we don't connect, if we don't see what is a common 
issue, how can we win an ideological battle if we don't 
understand the ideology of the enemy? If we are going to win, 
it would be some kind of an accident.
    Dr. Lewis. You know, in my written testimony I started out 
by noting that someone I know had wrote some time ago about the 
end of history, that we wouldn't see any more conflicts because 
there was a global consensus on liberal democracy. Well, he was 
wrong; and this comes, I think, to your point about, you know, 
the international nature of the struggle.
    You don't have to look at the United States. You can look 
at India. They have similar problems. You can look at Russia. 
They have similar problems. They haven't done as well as we 
have, but they have the same problems. You can look at Israel. 
You can look at Thailand or the Philippines. You can even look 
at China. All of them face a similar threat.
    So there is a possibility here to build a consensus, and I 
think that we need to get that kind of international voice 
raised up to say there is something we would all rather do, and 
the people who are advocating against us, the people who bomb 
in all of our cities, are not doing the right thing.
    It will take time, as you have said, for that to emerge; 
and I just hope it can emerge quickly.
    One part of that, and we have trouble with this in the 
United States, we don't really understand all the dynamics 
within the Muslim world. So to think of it as one, you know, 
monolithic entity, we want to avoid that just as we needed to 
avoid it in the cold war. So there are Muslim voices who 
support the kind of consensus that we could live with. We want 
to encourage them. If we could get that started, I think 
eventually we will win.
    Mr. Shays. What I have taken from this hearing, aside from 
trying to wrestle with this issue of what is a crime and so on, 
is the strategy I outlined that I have believed in for umpteen 
number of years, somehow I have to figure out how that outreach 
fits into this strategy. But a strategy can help guide you to 
do--it should be a complete strategy that helps you do all the 
elements.
    So, did you want to something, Mr. Rollins; and then I will 
go to the professional staff.
    Mr. Rollins. Yes, very briefly, Mr. Chairman, very brief 
point trying to tie the two issues together, strategy and the 
message. As we all know, the U.S. State Department does have an 
Under Secretary for Public Diplomacy in charge of outreach. 
Karen Hughes has been in this position for 15 months, and that 
might be one vehicle that we could provide additional focus as 
we were talking about to try to get an international discussion 
on this issue going. To date, I don't think that effort has 
been very successful.
    Mr. Shays. Thank you for reminding me about that.
    Mr. Parker, do you want to say something?
    Mr. Parker. I am enormously struck as a foreigner and not a 
particularly religious person of all the countries in the 
Western World that should understand the complexity of religion 
in the Muslim world, America is easily at the forefront. You 
have a plethora of different religious groups in this country 
actively engaged in politics, enormous shadings between 
different religions. It is an incredibly broad patchwork----
    Mr. Shays. I will tell you the answer to why that is. We 
don't have to work at it. When I taught at a university during 
the Iranian-Iraqi war, we had students, Iranians and Iraqis, 
who sat next to each other and talked to each other, 
Palestinians and Jews--Israelis not Jews--Israelis in the same 
classroom, and somehow when they are in the environment here, 
it wasn't the kind of issue. So because it wasn't kind of the 
issue, there was such a sense of normalcy that what you just 
said----
    Mr. Parker. There is always that expatriate phenomenon, 
that we say about Northern Ireland the only person who really 
understands a Northern Ireland Catholic is a Northern Ireland 
Protestant. Because, frankly, nobody else really understands 
what is going on in that little piece of territory.
    Having worked at the ICTY and The Hague, there is no 
problem between the Croatians and Serbian and Muslim 
translators, because they all live in Holland, they want to go 
to the same restaurants and speak the same language.
    It is actually kind of nice to bump into somebody who comes 
from your part of the world. I have noticed that. I have taught 
classes in terrorism with Israeli military and Arab American 
students and people from the Middle East in the classes; and, 
to be honest, they tend to moderate discussions of sensitive 
issues, rather than actually be the cause of dissension in the 
classroom.
    Mr. Shays. But if they were back in their own countries 
they would have a different view of that whole issue.
    Mr. Parker. We hope the educational experience they have 
gone through will mitigate that.
    The other thing I remember being told by a relatively 
senior former counterterrorism official in the United States, 
we were having a meal one evening, and he turned to me, and he 
said, do you know what I think the biggest threat to Western 
civilization is? And I said, no, what do you think it is? And 
he said, European secularism. And that was about the dumbest 
thing I ever heard. I said I had never heard anything quite 
like it. You would never hear a statement like that out of 
anybody in Western Europe.
    It is interesting. Religion is very much a part of public 
life here as it is in the Middle East, and I find it odd that 
people react to it as though there is something strange about 
the involvement of religion in politics. As a foreigner 
outsider, I see my American colleagues shaking their heads 
here. It seems very present in American political life. It may 
be a misconception, but you turn on the talk shows or just as I 
drove up from North Carolina I heard six on seven religious 
stations as I was trying to find a radio station with news on 
it. You couldn't find--there isn't a religious station in 
England, period, of any denomination.
    Mr. Shays. You point out one of my--I have come to this 
conclusion over a number of years, that the United States 
should have diplomatic relations with every country, however 
fearsome it is--North Korea, Iran, Cuba. Because our biggest 
failure in Iraq was not believing that he had weapons of mass 
destruction. If we had been there, we might have found out he 
didn't. But it was not knowing how poor the infrastructure was. 
And almost anybody who had been there just traveling to work, 
you know, not having air conditioning for, you know, half the 
day, would have said, you know, I think this country has some 
challenges, like basic challenges that we didn't know.
    Plus the fact that half of our embassy employees would not 
be from the State Department, which would be another factor. 
Just the mere fact that you would have said to me about the 
religious stations, I wouldn't think twice about it, but you 
would, given it is different in your society.
    If you would tolerate some questions that we just want to 
get on the record from the professional staff.
    Ms. Daniel. I am going to string together a couple of 
questions relating back, actually, to Baroness Falkner's 
testimony in which she suggested that the British concentrate 
on increasing counterterrorism action at this point after 
several recent legal reviews while the Americans are mired in 
continued increase of counterterrorism legislation at this 
point.
    So as the first part of the question, I am interested in 
the group's reaction to that; and part of it is circumstantial, 
of course, but your reactions to that.
    Following that, you suggested the United States establish 
the position of the independent reviewer of terrorism 
legislation--just to recap--creating a forum where interested 
parties have the ability to feed into a nonpartisan process of 
assessment on the provisions of the act, increasing public 
confidence and providing a measure of how provisions are 
bedding down in practice so they can be one source to go to. I 
wonder, in the American counterterrorism apparatus, where that 
would fit?
    And in a broader sense there, how does the consolidation of 
reviewing power into one office here affect the balance of 
powers among different counterterrorism agency components?
    So as each of you wishes to respond, I guess, to those 
three questions, please. Mr. Rollins.
    Mr. Rollins. I will take a shot.
    The first part, with regards to the legislation, I think I 
would be in agreement, if I understand the question correctly, 
that there is a focus on increased additional enhanced 
legislation in the United States.
    We have had the Homeland Security Act, we have had the 
Intelligence Reform Act, had the PATRIOT Act and a number of 
other acts that support our counterterrorism effort. But the 
focus, quite often, when it comes to a current threat stream or 
Hurricane Katrina or any type of incident is legislative, 
rather than let's see what we have on the books, and allowing 
it to mature, rather than to continually revise or come up with 
new legislation.
    If that answers your first question.
    The intelligence community specifically, each intelligence 
community organization has an Inspector General, the Director 
of National Intelligence has an Inspector General and an 
ombudsman office as well, but there is not a wholistic office 
where the public, much like the United Kingdom, can come into 
and to the Director of National Intelligence office or any 
other office and say, I think that I am being persecuted by the 
intelligence community or by the law enforcement community; I 
think I am being surveilled without warrant. That does not 
exist in the United States today.
    And, forgive me, the third question?
    Ms. Daniel. The third point was how the consolidation of 
reviewing power in such a structure would affect the balance of 
powers that now exist among counterterrorism agency components 
here.
    Mr. Rollins. I think any organization that gives the 
populace a voice and the effort and an ability to be heard 
about concerns is good. We certainly have the FOIA capability 
where U.S. citizens can write into a department or agency, 
intelligence community or law enforcement and request 
information. Quite often, the information is law enforcement 
sensitive or it is classified. But certainly I think that an 
independent entity where citizens can have a voice in trying to 
ascertain their concerns is always a good idea.
    Mr. Parker. The U.K. has a whole series of different 
commissioners and different acts and different institutions, 
but they are appointed by government, and we have a mixed 
record of using these government-appointed tribunals 
successfully to address public concerns.
    During the Northern Ireland conflict, two reports in 
particular spring to mind. The Widgery Tribunal that looked 
into Bloody Sunday and officially found no wrongdoing by the 
Royal Parachute Regiment provoked such outrage that the British 
Embassy in Dublin was burned down. The Compton report, in 
coercive interrogation, found that there was nothing 
inappropriate, but, as to techniques that were being used, the 
European Commission on Human Rights described it as a modern 
system of torture, suggesting that there was some distance 
between the two committees.
    So it is not a panacea. It has worked well in some 
circumstances, but in very highly charged circumstances it has 
worked poorly. The Security Service Commissioner has received, 
at least up until 1997, has received 275 complaints and upheld 
none of them. That may be because there was no substance to any 
of them, but, equally, that is hard to sell to somebody who is 
suspicious of the Security Service. But that was a genuinely 
independent oversight process.
    In Britain, we kind of rely on the fact that the people 
trust governmental organizations and we trust the great and 
good to do a decent job. I suspect that wouldn't fly over here. 
People would much prefer to have someone elected, an elected 
official perhaps oversee this sort of thing.
    Actually, there is a little bit of a weakness. People 
appointed tend to be senior judges or tend to be 
parliamentarians from either the House of Lords or the House of 
Commons; and that perhaps doesn't recognize the concerns of a 
minority group, for example, that might be complaining. They 
are not complaining to somebody who will necessarily have 
natural sympathy for their point of view, if the commissioner 
happens to be the former head of the Home Civil Service or 
somebody from the House of Lords.
    We do have independent watchdogs as well, and they are very 
effective. Some are patchy. Liberty I wouldn't say is 
particularly effective, but there have been other groups that 
have been very good at raising individual concerns as charities 
or charitable foundations. But it is a bit of a patchwork, and 
it is an odd system and I think fairly unique to the United 
Kingdom. So I don't think it transplants very well, to be 
honest, in my personal opinion.
    I think that is really all I would offer.
    Ms. Falkner. By way of clarification, I should say that the 
reviewer's role is not only for the public to have access to 
him in the operation of the acts, but, by being the overall 
reviewer of all the legislation, he has detailed inquiries of 
people who use the act, are affected by it and, as I said, can 
see material.
    He makes a point in his latest report of June 2006, if it 
were my view that a particular section or part of an act is 
odious, redundant, unnecessary or counterproductive, I would 
make recommendations for it to be repealed. He says some 
repeals have occurred as a consequence of this.
    So it is slightly different from commissioners or the 
offices of inspector generals in that they are part of the 
executive bodies that implement the act. His role is to look at 
the overall workings of the act. For example, he finds that if 
staff of the Customs Service and port services don't have 
sufficient accommodation to carry out their jobs effectively--
it is a very practical thing--he makes a practical suggestion 
to the relevant department to provide them with increased 
funding in order that they may do their job better, and it is a 
very pragmatic and practical course of action.
    When it comes to scrutiny, the home secretary, is obliged 
to lay his report before Parliament; and I think were the 
report to be sufficiently contentious that time would be made 
to have a debate. He is also cross-questioned and escorted on 
evidence on the various parliamentary select committees that 
have an interest in his area of work.
    Dr. Lewis. A couple of points that I think hit your 
questions, and if they don't please let me know.
    One of the things that a number of us have argued is that 
it would be easier to deal with some of the increased 
requirements we have for communication surveillance or domestic 
intelligence if they were balanced by additional emphasis on 
civil liberties protection, and there has been some effort in 
the United States that hasn't been sufficient. So if I was 
thinking of new legislation which we need, you know, I would 
put a little more emphasis on how do you protect civil 
liberties.
    The key there is really congressional oversight. You need 
all three branches involved.
    You need the judicial branch. We have them, of course, with 
FISA. I don't know if I like the secret court protecting me. 
Maybe they do; maybe they don't. Who knows?
    You have executive branch committees, organizations. The 
PATRIOT Act set up one. Homeland security has a privacy board. 
There is a number of boards that look at these things, but they 
are mainly invisible.
    Perhaps a more dynamic executive branch role would help, 
but, you know, you have the issues with confidence with the 
executive branch and the appointment; and it doesn't seem to be 
working. God forbid that I would ever recommend that an IG do 
anything.
    Mr. Shays. Why is that?
    Dr. Lewis. Just a joke, Mr. Congressman.
    Mr. Shays. I take it personally.
    Dr. Lewis. No, no. Former fed--can't touch IGs--very bad.
    And that brings you back to Congress, and I think that one 
of the things that United States has that is an advantage is 
the idea of congressional oversight, congressional hearings. 
The oversight function, although when I did work for the 
government, I disliked it. It was like being chased around by 
Congress. It turns out it is crucial.
    So I would look at ways to strengthen that, and this is 
putting the ball kind of back in your court, Mr. Chairman, 
but----
    Mr. Shays. I am going to quickly respond to, if we are 
talking about giving the government more power, it strikes me 
that--and the executive branch in our divided system, then you 
have to have Congress be more energetic in congressional 
oversight, not less; and we do a disservice to the presidency 
when we aren't that way. You need a whistle-blower statute that 
actually works in the intelligence community, and I don't think 
it does. And we have a civil liberties board that is weak, that 
we are creating without Senate approval, without fixed terms in 
our subpoena power; and it seems to me that Senate civil 
liberties board could be the board to which you would turn to 
if you feel that you are being unfairly dealt with.
    So as I am listening to you I am thinking of how it would 
fit in our own system.
    Mr. Rivkin, I am sorry. You have the floor, so keep going.
    Mr. Rivkin. A couple of points, not to repeat what has 
already been said.
    I think we have a peculiar need in our system for new 
legislation, in part because the preexisting, the pre-September 
11th baseline is quite constraining. We don't have a huge 
surplus of law enforcement powers in peacetime, at least in my 
opinion; and, you know, unfortunately, I don't need to remind a 
sitting Congressman how difficult it is to do comprehensive 
legislation spanning across multiple committees.
    In some sense, it would have been magnificent post-
September 11th to have comprehensive legislation revisions to 
FISA, revisions to the PATRIOT Act and, while you are at it, 
something similar to military commissions legislation. Let's 
move it along. But that is not realistic. So the fact that 
there is this perception that there is a flurry of legislation 
to me is unavoidable.
    On the civil liberties protection, I agree with the 
question, Mr. Chairman, it is actually very--my experience, at 
least, in the government is it is very confining and very 
straining, but it is not very effective. There are clearly 
better ways of doing that.
    In part, I think what is regrettable--and this hasn't 
happened under several administrations--we don't have a 
comprehensive whistle-blower protection system for reasons that 
are quite inexplicable. I frequently get challenged on NPR as a 
designated conservative why there is no whistle-blower 
protection; and my response is, why didn't one get enacted in 
the previous administration? It is amazing. It could be done.
    But, in some sense, I think the level of protections, civil 
liberties in this country is quite unprecedented if looked at 
in toto. If you don't just look at commissions and whistle-
blowers but if you look at the absolute unprecedented media 
freedom, the fact--how do we blow a whistle in this country? 
Technically, it is not whistle-blowing. It is called a leak. I 
like to reassure people, if the Government is doing anything 
naughty, there is no doubt it is going to end up on the front 
page of the New York Times, Washington Post very quickly; and 
to me that is a source of great solace kind of.
    Mr. Shays. But that shows the failure of not having a 
proper whistle-blower statute. Because if you had a system that 
really worked and could protect whistle-blowers you could deal 
with it.
    Mr. Rivkin. Through the channels, I fully agree, but in 
terms of a bottom-line impact----
    Mr. Shays. That is the safety valve.
    Mr. Rivkin. It is a safety valve; and, therefore, it is not 
nearly as onerous. But I wish we could reform the system. But I 
really don't think there is a huge deficit of civil liberties 
in this country.
    My only point, which is one I feel as passionately as some 
of the points you mentioned, I think that powerful 
congressional oversight is a necessary component of our system 
of liberty. What is regrettable is a tendency to push more and 
more things onto the judiciary and failure to exercise 
oversight and direct insistence, that we don't want to exercise 
oversight. Because the great thing about oversight, it not only 
checks the executive, it does it in politically accountable 
fashion. Given a bunch of radical free judges is the antithesis 
of accountability, because then you can wash your hands of it 
no matter what they decide. And that, unfortunately, is a 
tendency on the part of many folks where executive is 
constrained more and more by judiciary and less and less by 
Congress.
    Mr. Shays. Do you all have time to do just one more main 
question line of questioning? Let's do it.
    Ms. Daniel. As I've been listening to the discussion today, 
one thing that struck me is that when we talk about what 
Britain does right, for example, locally based counterterrorism 
and a more effective--I don't know if I should say streamlined 
but a more effective overall communications system, the 
conversation comes to a halt when we say, but Britain is much 
smaller. Britain has 60, I believe was the number, versus 
United States 13,000, I think is what you said, different----
    Mr. Parker. Eighteen.
    Ms. Daniel. 18,000 precincts.
    And this is also related to oversight, because it was 
mentioned in the written testimony the utility of locally based 
oversight; and certainly in this particular disruption of the 
alleged terror plot it was local information and local work 
again that contributed to the help--excuse me--to the success. 
So I guess my question is, in these different contexts, what is 
it about the British system that cannot be replicated on a much 
larger scale in the United States? Or, alternatively, if we are 
approaching the question for Americans, what is it that the 
United States would need to change about its local law 
enforcement and intelligence services' oversight and 
communication in order to make that work?
    Mr. Shays. Why don't we start this way? Mr. Rivkin, we will 
start with you.
    Mr. Rivkin. Yes. I am afraid that this is one area that 
would be very difficult to change, and the chairman alluded to 
it earlier, that federalism presents some serious problems. 
Because you do have local police chiefs that work essentially 
for mayors, and State police forces work for Governors, and 
they march--and they have to be accountable. Far be it from me 
to say they should not be accountable to the head of a 
sovereign to which--political sovereign to which they belong. 
But it is very difficult to do that.
    And even in less politicized areas you have sort of 
ideologically driven refusal to enforce things. You have people 
who refuse to enforce the PATRIOT Act; and you have people who, 
during the earlier debates going back to the Reagan 
administration, refusing to participate in other policies. 
There is a big thing with some police departments that don't 
want to participate in apprehending illegal immigrants.
    So it is very difficult to really force down. You can give 
money. You can give grants. But it is very difficult to impose 
a particular agenda.
    I don't think it is a problem nearly as much in Britain. 
Again, maybe I am somewhat pessimistic about the utility of 
bureaucratic refinements in organizations, but I think it is 
not very likely that we have much more effective local Federal 
and State cooperation--more effective in a sense of yielding 
appreciably better results, without changing things that cannot 
be changed.
    Dr. Lewis. I think you can tell from my testimony that I 
admire many aspects of the British system. But this is what I 
don't admire. I don't want a national police force. I don't 
want a Federal police. When I am in Chicago, I want a Chicago 
cop to report to the mayor. I don't want the Secretary for 
Homeland Security to have anything to do with him. So I 
wouldn't want to see a replication of the influence that the 
home office has.
    We have a Federal system, and I like it better. And that 
means that you have to focus on joint task forces, you have to 
focus on getting cleared personnel, you have to focus on 
finding ways to share information. There has been some work in 
that with the FBI and with DHS.
    A couple of things would help. What I hear from the local 
police is they could use more clearances, that they are unable 
to receive information. So finding a way to provide those 
clearances to the local cops.
    The second thing that I hear is that it would be useful to 
have a more coordinated Federal approach, you know, that you 
have--I don't know how many Federal agencies, is it 12 or is it 
17, all of them trying to coordinate with local or State 
officials, figuring out who actually is in charge, is it 
justice, is it homeland security and figuring out a way you can 
relay information to them.
    I think all those things would be useful.
    But, you know, to echo the remarks of my colleague, we have 
a Federal system. We chose that a long time ago, and that is 
going to limit our ability to mimic some of the things the U.K. 
does.
    Ms. Falkner. I am not really going to say very much on this 
area, because I am not an expert, but just to correct the 
impression given that Britain has a centralized national police 
force. It doesn't. It has autonomous, regionally based, 
independent police forces based on counties or regions.
    There have been proposals recently to amalgamate them into 
a lesser number. There are about 60 at the moment, and the 
proposal would bring them down to about 15. That met with such 
fierce local opposition that the government has announced that 
it won't take that legislation forward. It will review it 
again.
    Mr. Parker. There are a couple of areas in which there is 
an effective national reach within policing Scotland Yard, and 
certain specialist areas have a counterfeit currency squad that 
will operate throughout the country with the--in support of 
local police forces. Because it doesn't pay local police forces 
to develop that specialism, but basically it is a diffuse 
regional system. The Security Service acts as the glue, 
therefore, in counterterrorism to hold all those things 
together. I don't know it is as hopeless as perhaps portrayed. 
It takes initiative.
    What the Security Service did is establish secure 
communications systems for all the regional special branches so 
they could talk to each other, which they hadn't previously 
been able to do from their desks. It put regional offices out 
in all the force areas to go and spend a lot of time briefing 
people, desk officers tour the country to raise awareness on 
their subject areas. You have to get out from behind your desk 
and build the networks, you know.
    Regional FBI offices could do that. Clearly, there would 
have to be a great deal more clarity on who is in charge; and 
that, obviously, is easier said than done. But the bottom line 
is initiative and a little bit of money. You go out there, and 
you build the networks. It can be done, and there are--what--
six or seven task forces now around the country that are 
relatively effective, and that is a good model.
    Somebody runs the task force. At least somebody is head of 
the task force. If you could replicate that everywhere, you 
have a system. And you just have to get the task forces to talk 
to each other.
    It isn't insurmountable. It takes hard work. But what it 
really takes is initiative from people who push it forward. And 
somebody has to ride it, because people will slide back 
immediately. But bombs concentrate the mind wonderfully, and 
nobody wants to be responsible for the failed investigation of 
the bomb that went off.
    You know, the Security Service stops, I would guess, it is, 
obviously, difficult to reach figures--but probably two-thirds 
of all the attacks mounted in the U.K., if not a higher figure. 
But, you know, when the one that goes off is Bishopsgate or 
Canary Wharf or the Baltic Exchange and over a million pounds 
worth of property damage is done and people are killed, nobody 
really cares how good your success rate is. You have to get 
better. That is the bottom line.
    If people know they are going to be held accountable for 
failures, which God knows hasn't really happened in this 
country since 9/11, then somebody might actually start pushing 
things forward. But heads have to roll, people have to be held 
accountable, and people to be grabbed by the scruff of the neck 
and push it through. You have to find the right person to do 
that.
    But it will be kind of a sad comment if it couldn't be 
done, to be honest; and it is about getting serious on the 
offense. And if we are opposed to abrogating judicial civil 
liberties to prosecute the war on terror, then, good God, can't 
we talk a little more effectively? That seems to be something 
we would do before we give up essential civil liberties.
    But it does take will, and somebody has to push it through. 
And it takes leadership, executive leadership.
    Mr. Rollins. This is tying many of these pieces together. 
David said the constitutional authorities make federalism 
unattainable, so I don't think that is an area that should be 
the focus of our energy. And I agree as well that we do not, I 
think, want one central Federal entity setting requirements and 
focusing issues for the State and local law enforcement or 
homeland security advisers. The 18,000 police offices out 
there, they know their operating environment better than us 
here in Washington, DC. They know their communities.
    I think the piece that we are trying to figure out of what 
is missing is, yes, there is now 110 FBI joint terrorism task 
forces, there is now 42 State and local fusion centers located 
around the country, but back to the comment a number of us have 
made, who has the Federal Government roles and responsibilities 
for interacting with State and local communities for 
counterterrorism? Is it the FBI? Is it DHS?
    A National Governors Association report came out a few 
months ago. It is still not happy with the level of information 
they are receiving, still not happy with the type of 
intelligence and still cannot point to one point of contact to 
put in information requirements or, in turn, receive taskings 
from the Federal Government, just a dearth of responsibility.
    Mr. Shays. So I am clear on this, when we talk about the 
home department, when we were talking about--years ago, before 
September 11th, we had three commissions, the Hart-Rudman 
Commission, the Gilmore Commission and the Bremer Commission; 
and they all said there is a terrorist threat out there, we 
need to have a strategy to deal with it, and we need to 
reorganize our government to implement the strategy. And the 
most radical was the Hart-Rudman Commission that said we needed 
a Department of Homeland Security. And I had constituents who 
had said this before September 11th: What are we? Great 
Britain?
    So I have always like felt like the Department of Homeland 
Security was a pretty close parallel. But, as I heard your 
opening testimony, it is nothing close is it?
    Mr. Parker. No.
    Mr. Shays. I am going to ask the Brits first--Mr. Parker, 
what are some of the obvious differences, the Department of 
Homeland Security here versus the homeland?
    Mr. Parker. They can do it better, American.
    Ms. Falkner. Well, our home office, as it is called, rather 
innocuously I think in other European countries they call it 
interior ministries, which is far more sinister sounding, our 
home office is responsible for an extraordinary broad range of 
issues to do with law and order, which includes the running of 
the prisons, the management of offenders, the probation 
service, the police services, to some extent the customs and 
port authorities, airports authorities to some extent, judicial 
systems, judges, magistrates.
    The debate we are having in Britain at the moment is 
whether it is just too cumbersome a ministry to be able to do 
the important tasks as well as it should. There is some concern 
in the U.K. that it is not operating--the home--the current 
home secretary, giving evidence 2 months ago, described it as 
being not fit for purpose.
    Mr. Shays. That is a very British way of saying that.
    Ms. Falkner. So, sir, I would feel extremely reluctant in 
defending it when its representative, its own God on earth, is 
not able to do so.
    I think where it is considerably different is, apart from 
its reach, is the fact that it has a culture--because it is 
also responsible for the law offices and the judiciary, it has 
a different culture in its approach to civil liberties than 
your Homeland Security Department appears to do.
    Mr. Shays. Thank you.
    Do you want to say something, Dr. Lewis.
    Dr. Lewis. Sure. If you wanted that, you would have to 
really think about combining the functions that the Attorney 
General has at the Department of Justice with the Department of 
Homeland Security and at least--you know, just perhaps my 
British colleague sees the United States as more religious. I 
see the home office as more nationally controlling perhaps, and 
it has a degree of involvement in local matters that would 
prompt outrage here. I don't think we can do it. But DHS is a 
halfway step there.
    You would have to think about what more would you want to 
take from the Attorney General or perhaps give back.
    Mr. Shays. I am going to just ask all of you to make a 
closing comment on any issue you want.
    On August 10th, I spoke with some folks at the Department 
of Homeland Security, and they were pretty happy about what had 
taken place. Someone in my family was very unhappy with the 
day; and I said, how are you doing? She said, this is a pretty 
difficult day. I said, why? She said, because of what has 
happened in Great Britain. I said, no, sweetie, that is a 
hugely wonderful day, and that is a success story.
    Because we know all of these--well, we tend to realize that 
there are these threats, and isn't it good that we succeeded. 
And when I say ``we,'' even our Department of Homeland 
Security, in my conversation with them, took some pride in 
their work.
    What is interesting was when I was speaking to someone that 
knew Scotland Yard they said homeland security didn't really 
have been much to do with that. I said, OK, there is our people 
asking for--then when I met one of the advisers to your Prime 
Minister, he said absolutely homeland security was involved, 
and we were in close contact.
    What I thought was encouraging about that was the people 
who needed to know knew in the United States and Great Britain, 
and other people didn't know that others even within their own 
departments knew because they didn't need to know. And I 
thought that was a good sign. There was this interaction where 
it needed to happen, and that was I think a very positive 
thing.
    And, you know, I do think Americans are safer and Brits and 
others than they were before. It is just that people didn't 
realize how unsafe they were before. Unless, Baroness, your 
general view is that things have gotten worse because of how we 
have dealt with terrorists. At least that is kind of what I 
hear in terms of the fact that we are--I don't want to put 
words in your mouth--but the concern--it is not attributed to 
you, but some would feel that because we are, you know, 
confronting this Islamic threat in the way we are that we are 
heightening it rather than reducing it.
    But my general view is that at least our departments and 
our Government entities are starting to have that kind of 
interaction that we hope they would have.
    Ms. Falkner. Yes, Mr. Chairman, I think you are absolutely 
right there. I think we are more, all of us, in Europe and the 
United States, particularly in Britain and the United States, 
are aware that we need to work together and that work is 
certainly happening.
    Certainly in terms of dealing with the metropolitan police 
within my house there is some interaction, and they were good 
enough to brief me immediately after the August 10th events. We 
get the impression that there is considerable cross-border 
cooperation, and indeed it needs to be like that. We discovered 
that in the European Union context in the 1990's and set up a 
third pillar in the EU for cross-border cooperation.
    So, yes, I agree with you. I think we are safer because of 
that.
    On the other hand, of course--and I won't dwell on that 
because I think my views are clear--we are somewhat less safe. 
But that is overall in the world. I think everyone is less 
safe. Our lives are less secure than they were in the past, 
than certainly we expected them to be in the early 1990's when 
the Berlin wall came down. The peace dividend hasn't proved to 
be what we thought it was.
    Mr. Shays. I describe it this way. The cold war is over, 
and the world is a more dangerous place.
    Mr. Rivkin, any closing comments?
    Mr. Rivkin. Yes, just one, to summarize. We are clearly 
better off. We clearly have moved a long way. I think there we 
can and should do better, and I think we can absorb some of the 
British experiences with due regard to differences in our 
system.
    I am repeating myself when I say what is most important are 
not new bureaucratic organizations and not even new statutes 
but a serious dialog, not a caricature one, multiple dialogs 
certainly in this country about balancing liberty and public 
safety that allows the people to make the right choice.
    I am a big believer in the wisdom of the American people. 
If a debate is raised properly and not a caricature, not finger 
pointing, I think they will come to the right answer on all 
sorts of issues ranging from privacy to profiling to procedures 
for interrogating detainees.
    Mr. Shays. Thank you, very much.
    Yes, Dr. Lewis.
    Dr. Lewis. Just quickly, I think we have covered a lot of 
ground in this hearing, and my view is there are useful things 
we can learn from the British. We can't necessarily duplicate 
them because of our Federal system, but they have some 
interesting precedents for how we might want to reshape our 
counterterrorism.
    I think you have made the point that we need to think of 
not only defensive strategy which we can learn from the British 
on but also a longer-term strategy that wins the ideological 
battle. So I hope anything we come up with will combine both of 
those.
    Mr. Shays. Thank you. I will let you go, Mr. Rollins, and 
let Mr. Parker have the last word.
    Mr. Rollins. Mr. Chairman, once again, thank you for 
allowing me to be here. I think there are definite points of 
success to point to at the U.S. interagency Federal Government 
level and at the U.S. United Kingdom international level.
    My question and concern is, would we have had the same 
level of success had the potential terrorist incident, planned-
for attack occurred here in the United States and focused at a 
less secure sector other than the aviation sector? And my 
concern is both domestically and internationally we continue to 
rely on technological solutions rather than human-based 
outreach solutions.
    As my written testimony offered as well, I think the notion 
of homeland security as we matured in the past 5 years as well 
needs to take a refined look on more involvement with the State 
and local communities, rather than a Federal-based approach.
    Mr. Shays. Thank you, Mr. Rollins.
    Mr. Parker.
    Mr. Parker. I think the big message that comes across from 
the British experience is that coordination pays dividends. But 
it comes with the proviso that it takes time to achieve, and 
the success that you saw or what appears to be a success, 
because we haven't had the court case yet, foiling the 
airplanes plot, is the combination of 15 years of developing a 
particular system, from the beginning of the 1990's. There 
aren't any quick fixes, and you have to invest in a way of 
pulling people together, and you have to spend an awful lot of 
time building on it. Last thing you really want to do is keep 
chopping and changing your approach.
    So I find myself in the odd position of drifting toward 
``stay the course,'' actually, and, you know, build stronger 
links along the lines that you have at the moment. It is those 
relationships that is the investment in institutional and 
individual personal relationships that will ultimately pay real 
dividends.
    Mr. Shays. I thank you all very, very much. And I say to 
you, Baroness, not only did we have two of your colleagues from 
the Parliament come one time and testify, we invited them to 
then sit on the panel with us and question other witnesses. But 
it is probably the last time I will do it because they were so 
witty, so intelligent, so much fun that they made us common 
Members of Congress feel very common; and the expectation from 
those who heard the hearing was, why can't we have more Brits 
join your committee?
    So, at any rate, I was thinking, wouldn't it be interesting 
to get a group of members and allow us to come to Great Britain 
and participate in a hearing and invite some of you all to do 
the same and start to share these ideas. I think it would be 
kind of--very helpful. I have learned a lot today, and I do 
appreciate it. Thank you so very much.
    With that, the hearing is adjourned.
    [Whereupon, at 3:55 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
